<html>
<title> - NATIONAL PARKS OF CALIFORNIA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                      NATIONAL PARKS OF CALIFORNIA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 28, 2005

                               __________

                           Serial No. 109-162

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform






                    U.S. GOVERNMENT PRINTING OFFICE

29-335 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Mark Pfundstein, Professional Staff Member
                           Malia Holst, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 28, 2005................................     1
Statement of:
    Jackson, Theodore, Deputy Director for Park Operations, 
      California State Parks; Gene Sykes, Chair, National Parks 
      and Conservation Association; Greg Moore, executive 
      director, Golden Gate Conservancy; and Daphne Kwok, 
      executive director, Angel Island Immigration Station 
      Foundation.................................................    35
        Jackson, Theodore........................................    35
        Kwok, Daphne.............................................   176
        Moore, Greg..............................................   170
        Sykes, Gene..............................................    45
    O'Neill, Brian, General Superintendent, Golden Gate National 
      Recreation Area, National Park Service, Department of the 
      Interior...................................................     6
Letters, statements, etc., submitted for the record by:
    Jackson, Theodore, Deputy Director for Park Operations, 
      California State Parks, prepared statement of..............    38
    Kwok, Daphne, executive director, Angel Island Immigration 
      Station Foundation, prepared statement of..................   179
    Moore, Greg, executive director, Golden Gate Conservancy, 
      prepared statement of......................................   173
    O'Neill, Brian, General Superintendent, Golden Gate National 
      Recreation Area, National Park Service, Department of the 
      Interior, prepared statement of............................     9
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Sykes, Gene, Chair, National Parks and Conservation 
      Association, prepared statement of.........................    48


                      NATIONAL PARKS OF CALIFORNIA

                              ----------                              


                       MONDAY, NOVEMBER 28, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                 San Francisco, CA.
    The subcommittee met, pursuant to notice, at 3:40 p.m., at 
the Hawthorne Room, Golden Gate Club, 135 Fisher Loop, San 
Francisco, CA, Hon. Mark E. Souder (chairman of the 
subcommittee) presiding.
    Present: Representative Souder.
    Staff present: Marc Wheat, staff director; Jim Kaiser, 
counsel; and Mark Pfundstein, professional staff member.
    Mr. Souder. I apologize for the delay. I had to switch 
airports this morning. Fortunately, Northwest Airlines got me a 
ticket after Chicago bogged down to go through Detroit. So I 
appreciate your patience. I look forward to this hearing.
    Let me sort out my opening statement here. Good afternoon. 
I thank you all for joining us. This is the sixth in a series 
of hearings on the critical issues facing the National Park 
Service.
    This hearing will focus on the Parks of California. 
California is the home to many of our Nation's most famous 
parks. Yosemite, Golden Gate, Redwood, Death Valley are 
immediately recognized by Americans wherever they live.
    The National Park Service is facing many challenges and 
problems. The units of California are no exception. Ever 
growing crowds at many of our most popular parks continue to 
put pressure on park resources. Golden Gate National Recreation 
Area is one of the most popular parks in the park system. As an 
unusual urban unit, Golden Gate and similar parks face some of 
the same problems as many other parks, but also unique 
challenges unlike any other. This hearing will examine how this 
park unit fits into the system as a whole.
    California is also the home of some Federal and State park 
partnerships. Most notable are the partnership at Redwood 
National Park and the newest partnership at Angel Island 
Immigration Station. At Redwood National Park, three California 
State parks and the National Park Service unit represent a 
cooperative management effort of the National Park Service and 
California Department of Parks and Recreation.
    Angel Island opens a new chapter in State and Federal 
partnerships. Although a California State park, new 
legislation, soon to be signed by President George Bush, would 
authorize Federal funds for the restoration of the Angel Island 
Immigration station. Through State and Federal coordination, 
Angel Island, the ``Ellis Island of the West,'' and an 
important site in American history, will help to complete the 
story of immigration to the United States. I am scheduled to 
visit Angel Island tomorrow with the Coast Guard and Park 
Service.
    On our first panel we welcome Brian O'Neill, the General 
Superintendent of the Golden Gate National Recreation Area. He 
will be testifying on behalf of the National Park Service. He 
will be joined during the question time by Don Neubacher, the 
Superintendent of Point Reyes National Seashore; Bill Pierce, 
the Superintendent of Redwood National Park; and Michael 
Tollefson, the Superintendent of Yosemite National Park.
    Our second panel will be Theodore Jackson, the Deputy 
Director for Park Operations of the California State Parks; 
Gene Sykes, representing the National Parks Conservation 
Association; Greg Moore of the Golden Gate Conservancy; and 
Daphne Kwok of the Angel Island Immigration Station Foundation. 
I welcome you all.
    First, I'm going to do a couple of procedural matters and 
then give a little bit of explanation of what we're doing with 
the hearings beyond that. Before we hear testimony, we need to 
take care of some procedural matters. I first ask unanimous 
consent that all Members have 5 legislative days to submit 
written statements and questions for the hearing record and any 
answers to written questions provided by the witnesses also be 
included in the record. Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by Members and 
witnesses may be included in the hearing record, that all 
Members be permitted to revise and extend their remarks. 
Without objection, so ordered.
    Finally, I ask unanimous consent that all Members present 
be permitted to participate in the hearing and if any other 
Members show up today from the California delegation, without 
objection, it is so ordered.
    This is part of a series of hearings we're doing. Let me 
briefly describe our subcommittee. It's part of the Government 
Reform Committee. Normally, parks hearings and other hearings 
are conducted through the Resources Committee. If you briefly 
look at how Congress is structured, you have an authorizing 
committee such as the Resources Committee that would set policy 
and any legislation. So for example, my legislation that 
relates to national parks would go through the Resources 
Committee. We have an Appropriations Committee that then 
decides how to fund inside the authorizing committee and the 
Government Reform Committee then makes sure that what has been 
authorized and funded is being implemented the way that 
Congress intended by the executive branch.
    Every time we hold hearings and this series has been no 
different, other committees holler, ``hey, how did you get in 
this jurisdiction? Why are you doing a national parks hearing? 
You're not the Resources Committee. You're not the 
Appropriations Committee.'' But in fact, the oversight 
committee of Congress existed before the authorizing committee. 
There was Government Reform oversight over the Park Service and 
Resources prior to there ever being a Resources Committee in 
congressional history.
    We go into whatever basic areas that the subcommittee 
chairman and the committee chairman working with the ranking 
members of the other party choose to do, so probably the most 
famous recent event in this year, at least, was your testimony 
today and you can remember what Raphael Palmeiro forgot and 
that is, you're under oath. Mark McGuire had an absent memory 
and we hope none of you will have an absent memory, but you've 
joined that.
    We also did a variety of oversight, particularly during the 
Clinton years, there was a lot of oversight. We had Waco, White 
Water, all those type of things. We also just did oversight on 
the bird flu.
    My subcommittee spends about half its time on narcotics, 
but our jurisdiction, which you do swapping among the chairmen 
and so on, includes the Department of Justice, HHS, Education, 
HUD, and we have one other. And then we have a whole series of 
smaller things. I traded Commerce to get National Parks and we 
have faith-based, National Endowment for the Arts [NEA]. But we 
spend about 50 percent of our time on narcotics. Every cycle I 
pick a subject that we want to focus on and this time it was 
parks.
    As many of you know, I've been an advocate. I've tried to 
get out to as many parks as possible. And I wanted to kind of 
get a comprehensive view working with NPCA, working with the 
Park Service, working with the private groups in each area, to 
get kind of a comprehensive overview that we'll do not only 
each of these hearings, but there will be an individual book 
and hearing report, but also then we'll do a 2-year summary of 
the process that we've done as we've done regional field 
hearings around the country, raised awareness around the 
country, identified the different problems.
    Now just like we did a few years ago and we did on the 
Southwest border, much of what happened in the White House 
Faith-based Office, many changes occurred during the process 
and obviously, it's a symbiotic relationship. Ideally, some of 
the concerns that we want raised in the hearings will already 
have been addressed inside the Park Service because by calling 
attention to something and working internally, you do that. 
Some of these are really fundamental questions of how you 
prioritize funding in a difficult era.
    One of the things we're going to be looking at today are 
things that are ways with the State and Federal cooperation and 
the Golden Gate National Recreation Area of really kind of some 
of the early challenges that the Park Service felt in 
accommodating some of that.
    And the question is is how are we going to deal with this 
long term? How much can the California model be replicated? And 
really looking toward the 100th birthday of the Park Service 
and say where are we headed as a vision? How do we analyze, 
given the pressures of limited dollars, combined with the 
tradeoffs that we're making?
    I was just talking on the airplane with a man who actually 
has some land in West Virginia that they would like to add to 
the New River area and part of our constant tradeoff is his 
debate as executor of an estate is does he--he has offers for 
double what the National Park Service is offering for the land. 
He would rather give it to the Park Service, so in the New 
River Gorge, you can canoe and not see development, but he has 
a fiduciary responsibility to his estate.
    How much do we say we're going to put it in land? How much 
do we say we're going to put it into services? How much do we 
say we're going to put it in trying to keep as much staff as 
possible? And how do you do these tradeoffs? And where is the 
money going to come from? And to do that we need as many 
creative ideas as we can. We need to look at the system as a 
whole, get the data in.
    What we tend to find, as Congressmen, is that it comes to 
us as a done deal and we really need to be looking at what 
tradeoffs we're making, so as the elected officials, we can--
good chance, we may agree with some of it and may not agree 
with some of it, but a lot of times we don't even realize 
what's happening internally and this is our attempt to do so.
    You could also tell from my reading the statement that 
we've done this in a pretty bipartisan way, at a time when the 
minority party and the majority party have to both sign off on 
hearings and can object. My Ranking Member Elijah Cummings, who 
was originally planning to be here today, has been very 
cooperative and supporting of this as has Mr. Waxman at the 
full committee level and Chairman Davis. Some preferred we 
didn't have the hearings.
    And I think it's important on an issue like national parks, 
while we may have nuance differences, that we try to do this as 
much in a bipartisan way and have the National Park Service 
continue with its popularity among the general public, but also 
try not to get as heavily caught up in some of the Washington 
fights that we have, will have and will always have and try to 
look at a broader vision of where do we want our National Park 
Service to go.
    Now as I mentioned our first panel, we'll take the official 
testimony from Brian O'Neill, General Superintendent of Golden 
Gate National Recreation Area. He's accompanied by Don 
Neubacher and Bill Pierce and Michael Tollefson.
    Now since I'm going to ask questions, I am going to 
administer the oath to all of you as an oversight panel, all 
witnesses testify under oath, so if you'll each stand and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    So we'll start with Mr. O'Neill. Thank you.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 29335.001
    
STATEMENT OF BRIAN O'NEILL, GENERAL SUPERINTENDENT, GOLDEN GATE 
NATIONAL RECREATION AREA, NATIONAL PARK SERVICE, DEPARTMENT OF 
                          THE INTERIOR

    Mr. O'Neill. Mr. Chairman, we all thank you for coming out 
to our great city of San Francisco and to have a hearing 
related to the National Parks of California. We love your 
passion for parks and your desire to better understand the 
operational challenges that we have in both stewarding our 
resources as well as serving visitors from all over the world.
    In addition to serving as the Superintendent for the Golden 
Gate National Recreation Area, I currently chair the 
Partnership Advisory Committee for the Regional Leadership 
Council for the Pacific West Region. This role has acquainted 
me with the extensive range and variety of partnerships our 
region's parks have engaged in. Also, I currently co-chair the 
National Federal Interdepartmental Task Force on Partnerships 
and Cooperative Conservation, and through that I've obviously 
gained an understanding of what's happening on the national 
basis in terms of new concepts of funding and partnering.
    I'd like to summarize my testimony and submit my entire 
statement for the record, given the time constraints.
    There are 24 units of the National Park System in 
California, almost half the total number of units that are 
managed within this Pacific West Region. They represent well 
the diversity of landscapes in this great State and many of the 
historical events that occurred here. As you requested, our 
testimony is focused on national recreation areas, State and 
Federal management of park units and Yosemite National Park.
    Yosemite, long recognized as one of the most stunning 
places on Earth, faces the same complex operational challenges 
that any large national park faces. It also has the daunting 
mission of rebuilding much of the infrastructure in Yosemite 
Valley, due to extensive damage from the 1997 flood. This 
rebuilding is well under way, but it has faced some delays 
along the way, due to the extensive planning required in a 
number of lawsuits. Yosemite is engaged in some very successful 
partnerships, particularly with the Yosemite Fund, which has 
provided many millions of dollars for critical park projects.
    Golden Gate National Recreation Area encompasses a large 
expansive land in an urban area where more than half the land 
within the park boundaries is owned by other entities. Because 
this unit draws from large populations of residents and 
tourists, our sites draw 13 million people annually. And if you 
add Muir Woods and Fort Point, the number is closer to 16 
million. We had over 15,000 volunteers in fiscal year 2005 and 
through partnerships we leverage about 80 cents for every $1 of 
appropriated funds.
    The Golden Gate National Parks Conservancy is an 
extraordinary partner of ours. The Conservancy headed the 
fundraising effort for restoration of Crissy Field on the 
Presidio waterfront here which not too long ago was a fenced-in 
hazardous materials site. Not only did private funding pay for 
the restoration, but thousands of volunteers, including school 
children, donated countless hours cultivating native plants and 
placing them in and around Crissy Field's restored dunes and 
tidal marsh. This is now a very popular recreation site and 
important wetlands area.
    Within Golden Gate, the State operates four parks. One of 
those, Angel Island, is the site of the Immigration Station 
that is often referred to as the Ellis Island of the West. 
Since 1997, the California Department of Parks and Recreation, 
the National Park Service, and the Angel Island Immigration 
Station Foundation have had a three-party agreement to work 
together to preserve and restore this important historic site.
    Santa Monica Mountains National Recreation Area in 
metropolitan Los Angeles encompasses about 155,000 acres of 
land, although one-fifth of that land is managed by the 
National Park Service. The park has always worked closely with 
the California Department of Parks and Recreation and the Santa 
Monica Mountains Conservancy to coordinate land protection 
strategies and visitor use activities.
    Recently, the National Park Service has entered into a 
cooperative management agreement with the two State agencies 
for the joint management of public parklands. Last year, 
cooperative management activities generated over $850,000 in 
cost savings to these three agencies. The agencies recently 
launched a recreation transit system to increase access to 
parks from inner-city communities.
    The National Park Service provided the capital investment 
for the system and the State is providing the money to operate 
it. They also work together to acquire the historic King 
Gillette Ranch in the heart of the recreation area which will 
serve as a one-stop information center for all of the Federal, 
State and local parklands within the recreation area. This will 
improve service to visitors and reduce costs for both the State 
and the National Park Service.
    Point Reyes National Seashore is the San Francisco Bay Area 
Unit that predates Golden Gate. This park places an important 
leadership role in implementing the natural resource challenge 
within the San Francisco area network. And anyone who has been 
to Point Reyes knows that it's a beautiful, beautiful site and 
certainly rich in natural and cultural history.
    The Pacific Coast Science and Learning Center, which is 
located in a converted ranch house in the park, is engaged in 
cutting-edge work and is a great example of exactly what NPS 
hoped to accomplish when it embarked on the Natural Resource 
Challenge. Through partnerships between the National Park 
Service and universities, parks get the scientific research 
they need with funding provided mainly by other entities.
    Point Reyes and Golden Gate are part of the Golden Gate 
Biosphere Reserve, the only United Nations designated 
international biosphere reserve in the world that spans marine, 
coastal and uplands resources. The Nature Conservancy and 
Nature Serve have identified the San Francisco Bay Area 
encompassing Point Reyes and Golden Gate as the epicenter of 
biodiversity in the United States.
    Redwood National Park in northern California is unusual 
from a management standpoint because land within the boundary 
is jointly managed by the National Park Service and the 
California Department of Parks and Recreation. Of the 106,000 
acres within the boundary, about one third of the land base 
consists of State park lands. Yet, management of the Federal 
and State lands within the boundary is so seamless that 
visitors are hardly aware of the different ownership.
    Under the Redwood cooperative management agreement, the two 
agencies share staff, equipment, and facilities to fulfill 
common resource protection and visitor service goals. They 
develop common procedures for activities such as issuing 
special use permits, common programs for park operations such 
as staff training and media relations, and schedules that 
enable the two agencies to cover for each other and avoid 
duplication.
    The Federal/State management arrangement at Redwoods has 
worked so well that Congress has extended the same authority to 
enter into cooperative management agreements that it originally 
gave only to Redwoods to all other units of the National Park 
System.
    Mr. Chairman, that concludes my statement. We will be happy 
to answer any questions you may have.
    [The prepared statement of Mr. O'Neill follows:]
    [GRAPHIC] [TIFF OMITTED] 29335.002
    
    [GRAPHIC] [TIFF OMITTED] 29335.003
    
    [GRAPHIC] [TIFF OMITTED] 29335.004
    
    [GRAPHIC] [TIFF OMITTED] 29335.005
    
    [GRAPHIC] [TIFF OMITTED] 29335.006
    
    Mr. Souder. I'm going to go off into a couple different 
directions, but let me start with Golden Gate in particular, 
because this may be our only national recreation area that we 
have in this series of hearings. We're going to do Indiana 
Dunes National Lakeshore and we'll be at the Martin Luther King 
site in Atlanta, but I don't think we're going to get Gateway 
in on the East.
    I want to kind of develop how to approach, when we're doing 
the analysis of recreation areas, and I appreciate the time 
that you and your staff spent with me a number of years ago, 
and it's interesting to see the evolution of the park.
    One of the things I want to mention at the outset because 
there was a book written by a graduate student about the 
Presidio that I picked up when I was out here before and that 
was probably 6 years ago. I don't remember for sure. But this 
book by Hal Rothman, the New Urban Park Golden Gate National 
Recreation Area and Civic Environmentalism, I think was last 
year, came out last year.
    Mr. O'Neill. I think 2 years ago.
    Mr. Souder. Two years ago. I may have, since I didn't do a 
thorough review before I got in here, I may have some written 
followup or one of the staffers may call you before we use some 
of this. We tried at the last minute to see if he could come 
today. We may see if we can get him in another hearing. He's 
written a few other books too. He's obviously an opinionated 
guy, but it's a very detailed analysis of the history of the 
park. And I would like to use some of that in the report and I 
would also, I'm not sure what in my head is from the book, what 
I picked up from here and I wanted to reference that and ask 
you a few direct questions.
    I know you have worked at Boston Islands. Have you worked 
with other areas too as they've tried to develop their 
different----
    Mr. O'Neill. Yes, I've been troubleshooting in a number of 
areas, particularly trying to think through creative funding 
strategies and partnering opportunities in a way in which 
people think about joining into cooperation with others to 
achieve joint goals.
    Mr. Souder. So first in a broad sweep, comparing Golden 
Gate to other national recreation areas that you work with, was 
the biggest difference here the Presidio, and if so, can you 
leave that out and then talk about how, in your opinion, this 
has evolved as a parks strategy? In other words, it isn't one 
big natural park. It's not one historic site. You've got a 
series of different sites that aren't necessarily connected 
that have multiple use. Do you view that as fairly typical in 
national recreation areas? Are the challenges roughly the same 
if you took out the big military base question here?
    Mr. O'Neill. Yes. I should say first when you look at the 
resource values, say of Golden Gate, they're extraordinary in 
terms of their breadth of culture resources, as well as natural 
history, but clearly, it's a group of sites that have been 
integrated together under a concept of bringing the mission and 
values of the national park system to an increasingly 
urbanizing and demographically diverse urban setting.
    And I think we needed to understand from the very start at 
Golden Gate that the full potential, the park was only going to 
be realized if we were able to mobilize a citizen tree that had 
a sense of stewardship of those values. And that if we thought 
that it was a responsibility of the Federal Government do its 
own, we would had never been able to accomplish what we've 
done.
    So I think from the very start we evolved a concept that it 
was a park that was going to have to be built on partnerships 
and that we really had to understand what partnering meant and 
what creating a partnership culture really involved. We had to 
understand what the success factors were to successful 
partnering. We needed to understand that this needed to be sort 
of innovation lab for alternative financing and that Federal 
Government hopefully would play its proper role in providing 
support, but that we would never be able to accomplish what was 
needed if we depended upon that by itself.
    So we evolved from the early years, this partnership 
culture that said that there's talent in the community, that if 
we indeed engage them in a very deep way about the values of 
the park that we could get them to join and partnership with us 
to rehabilitate buildings, to maintain those buildings, to 
carry out programs that advance the purposes of this park. We 
also understood through an engagement process that we wanted 
them to understand the resource values here so they felt a 
personal sense of stakeholdership in the future stewardship of 
the resources.
    So interesting, from the very start, we realized that if 
indeed the Park Service felt that it could or should do it 
itself, it was a mistake and that the real potential of the 
park was going to be realized that if we saw ourselves not as 
the doer of all the work, but how we facilitated, brokered, and 
help convene how the talent of the community--and that's a 
very, very diverse way--could come in and join and stewardship 
with us.
    So I think the major concept here was that we were going to 
have to develop a different model for how we were able to 
manage these diverse resources and that model was going to be 
dependent upon how effective we were in engaging the community 
and identifying alternative ways in which the needs of the park 
could be established.
    So we developed what we called a stewardship investment 
strategy which is a 10-module approach where funding comes from 
to be able to accomplish the total needs that a park has.
    Mr. Souder. In this book, they go through everything from 
how you tried to work through the debates with dog owners to 
bikes, to horses, to--I mean you name it, you had the variables 
here. Have you seen as much of that type of--is that pretty 
much true of each of the recreation areas?
    Mr. O'Neill. I think we're seeing that as an essential way 
of doing business. We're dealing in an era where people demand. 
Their views are listened to, heard, appreciated, and dealt 
with. The kind of engagement they expect today is much 
different than what it was. I think we've learned it's 
absolutely essential that all points of view, all perspectives 
need to be part of a real civic dialog about the future of a 
place and how you deal with an activity. And we found if you do 
it well, facilitate it and you educate through that process, in 
most cases that group will come to a sound decision.
    And we're seeing this more engaged approach to community 
and civic interaction is occurring across the country in the 
Park Service and I think it's been helped by a recent 
Director's Order on public involvement and civic engagement. 
And that really sort of gets to the fact that public 
involvement today needs to be much different than how we 
defined it even 10 years ago. It has to be deeper, broader, and 
transparent. It needs to be often facilitated by those that 
don't have sort of a dog in the fight.
    Mr. Souder. Internally, in the Park Service, are the urban 
recreation areas, in other words, to some degree because of the 
regional system, you get a mix in each regional system. Is 
there any kind of view of how urban recreation areas differ 
from the Reservoir at Mount Shasta and the ones north here and 
the ones, Trinity Lake, and the big ones down in Texas? In 
other words, we have clearly Santa Monica Gateway, Golden Gate, 
Cuyahoga, big urban parks that are a totally different type of 
challenge and different mix of clienteles.
    Mr. O'Neill. I think the major difference is, obviously, we 
have the same set of management policies. We manage all units 
of the National Park Service, but I think the Park Service, one 
of our greatest challenges is how relevant are we as an agency, 
and how relevant is the national park system to a rapidly 
changing America. If indeed the national parks and the national 
units of the national park system and the service isn't 
relevant to urban America, it isn't relevant to America.
    You can go down into any inner city area in any major city 
and ask people if they know what the national park system or do 
they know what national park is in this system, it's a shocking 
reality check. We realize that the Golden Gate, the Gateways, 
the Santa Monicas, the Cuyahogas, the Chattahootchies are the 
portal by which we introduce the national park system and the 
concept of land preservation and personal responsibility for 
stewardship, because this is where the people are.
    This is where the diversity of America needs to have an 
opportunity to be introduced to the national park system. So I 
would say in some respects we carry a higher level of 
expectation and obligations in the urban areas because we need 
to reach those whose life is not really incorporated, land 
preservation in national parks as part of their reality.
    Mr. Souder. Could you briefly describe for the record a 
little bit about--my personal opinion is that the marketing of 
your posters and concepts of a collection of parks was an 
incredible breakthrough, now being copied all over America. 
It's really interesting, particularly as we see even whether 
it's big, medium or small, whether it's a collection of 
different parks.
    I know Oregon has a whole series of posters now, some that 
we're seeing in different parts of the country where it's non-
contiguous units and it's a way to kind of bind it together.
    Could you describe the history of how that happened? 
Because without that, I'm not sure that you would have pulled 
off the concept of a coordinated park.
    Mr. O'Neill. Well, it certainly made a big difference. It's 
making a big difference every day. I think one of our concepts 
is no matter how experienced we might think we are and whatever 
it is we're doing, there are people out in the broader 
community smarter than us. And this whole question of how do 
you position yourself in a market place, how do you brand sites 
as part of something special, how do you do visitor surveys and 
understand the pulse of the community and all of its 
dimensions?
    We didn't have a really good understanding of that or 
concepts of marketing, but we did know that there were very 
bright people in the community that we could tap into. And so 
we identified where the genius was in the community and we 
asked them to join with us in a pro bono effort to help us 
understand what we didn't know.
    And so we brought experts in from the marketing 
communications arena, advertising, print media, visual media, 
graphic arts, and as a team, we called it our Dream Team, they 
started us through the process of understanding how we needed 
to start with the basic social science work, the survey work, 
to understand where people were, and then they worked us 
through a process, an evolutionary process of understanding how 
we presented the set of national assets so that they were 
understood and appreciated by all diverse elements of the 
community. And it's been a work in process.
    And I think we were shocked at the first surveys. It was 
very difficult for those of us who had worked so hard and felt 
that we had achieved something to see the results of the 
survey. But we realized that it was telling us something really 
important. And when we went back and resurveyed 2 years ago, it 
was remarkable to see the difference. And it was because we had 
to learn a whole different art of how we begin to community and 
how we market and how we brand sites so they become visited and 
important in people's lives.
    So one of the survey instruments told us is that people 
like the individual identity, they liked Alcatraz and they 
could relate to that. They liked the Marin Headlands. They 
liked the Presidio. They didn't know they were part of anything 
bigger. And so they said you need to capture what unites all of 
them, but to maintain the specialness of each place. So the 
concept for the different images tied to the Golden Gate as a 
broader image came out of the realization or the results of the 
survey work.
    Mr. Souder. Lewis and Clark is really developing that now 
and other prime sites. Let me move to Mr. Pierce for some 
Redwoods Park questions. I appreciated the visit this summer 
and meeting with your staff and the State people there. It was 
very informative.
    Perhaps you could tell us for the record a brief, which is 
hard to do, because it was a complicated, long-fought battle on 
the Redwoods, but how it came to be a combination of the State 
parks versus the Federal, how the Federal dots go around and 
some of the interrelationships because it's probably the most 
intertwined that I've seen around the country.
    Mr. Pierce. Correct. Marilyn Murphy is here today as my 
counterpart with the State parks up there. She and I have been 
extremely lucky in that we followed the coattails of some 
people that did some excellent work and when you look back, 
you're correct. Those three State parks up there were 
established in the 1920's. And then the national park didn't 
come in until 1968. And along with that, because the boundary 
of the national park was actually encompassing the three State 
parks, there was a lot of discussion about OK, how is this 
going to work?
    I think over the years, many good people worked out how 
that's going to work and we then were able to continue the 
process. As I look back and as I look forward, probably one of 
the key things occurred in 1994 when the State parks and the 
National Park Service here in this region agreed that the best 
way to do this was to join hands and find a common ground and 
then move forward with that.
    And so from that the team which included at the time all 
the employees from the State parks and the national park, which 
I think is a key, you've got to get right down there on the 
ground and really involve all those people along with your 
neighbors, like Brian said. And then where do we have common 
ground? Well, that was pretty obvious that there was a lot of 
good common ground. I mean the California State Parks mission 
statement and the National Park mission statement are almost 
identical. We took that a step further and said, so, based on 
that, what's our vision of what these parks can be for the 
visitors? And what are the resources?
    From that one of our guiding principles developed the 
guiding principles that were matched up and carried that on 
down through the general plan, general management plan which 
was completed in 2000 right before Marilyn and I got there, 
which spells out what are the strategies of these joint parks 
for the future and cultural resources, natural resources, 
visitor use, lands, all of those things that are important. 
That really helped us then put it where the rubber meets the 
road.
    We were able then to take our strategies and develop our 
tactics. What do our work plans look like and we have now 
annual work plans that match up. And we have made it a much 
more efficient, effective operation. Our rangers, for instance, 
are cross deputized, and they jointly schedule. So we get more 
coverage with the same number of rangers by matching the State 
and national park rangers together.
    Maintenance is an outstanding example of where we match up 
very well. The other thing to look at, I guess, would be that 
the National Park Service was able to provide some real good 
expertise in resources management. The State parks, by the 
nature of where the State parks are and the campgrounds and 
road systems, provide the expertise in visitor services. The 
auto campgrounds, the picnic areas.
    And so by weaving those together, we have come up with a 
really good program that is seamless. Our interpretive program, 
for instance, some night it might be a State park ranger giving 
the program in the campground, some night it's a national park 
ranger giving that. At our visitor centers, we have five of 
them. We jointly work those five visitor centers.
    So I think that's the real key is you start out with the 
big picture common ground, and then you focus in on what does 
that mean for us on a day to day basis.
    Mr. Souder. Could you comment on two different things I 
want to explore a little. And that is, first off, how we--I 
think Mr. O'Neill used an interesting term, you said it's 
exposing people in urban environments to the ideal of the 
National Park Service, roughly is what you kind of implied. 
That implies that the ideal of the National Park Service is 
kind of a natural park semi-isolated wilderness would be kind 
of the purist in the sense of how can you bring those values 
and accommodate into variations of usage in urban centers and 
the tradeoffs you have to make in an urban park versus a 
totally isolated area and then Yosemite would be a semi-
isolated natural park, but also have wilderness areas and non-
wilderness areas inside that.
    At what point, how do we sort through how we--will the 
national park, the traditional kind of model, is it--will it 
survive as it becomes the small part of the National Park 
Service? Because when you go into the coastal redwood area, 
it's very difficult to tell when you're in the national park, 
when you're in the State park, when you're in private land.
    And driving up, before I got the introduction from the Park 
Service, from the south, the immediate thing is how come 
they're selling cut redwood here in this open area when I 
thought I was in the Federal park, no, I was in the State park, 
no, I'm in private land where they're cutting down the trees.
    It is hard, as an individual, to sort out what is the 
ideal. I walk out within the definition of a park when you have 
multiple and different types of units. Some areas you can have 
your dogs, some areas you can't have your dogs. Some areas you 
can do this, can't do that, which is true in a lot of parks, 
but it's more pronounced in the urban parks. At what point will 
we, in effect, dilute the traditional concept or is the 
traditional concept, when you look at the number of units, it's 
actually the minority of the number of units now?
    How do we work toward this and how would you define it? One 
way is to say we're working toward it. Working toward what? 
Does that mean that we're going to eliminate certain things 
over long term which is what some of the critics fear that 
initially in an agreement you will have boats and dogs and then 
they'll be eliminated toward idea? Does it mean we're going to 
have gradations of these different parks? Some will reach more 
people, more diverse people, but may not be as pure in the 
environmental sense? Kind of talk about that a little bit in 
these cooperations.
    Mr. Pierce. It is a challenge. I look back on all my years 
and one of the things I learned along the way was that I can 
almost predict when I went to a park, by when the park was 
created, what I would find in the way of boundaries and in-
holdings and those type of things. Because as you say, Mr. 
Chairman, the older parks were established even before some of 
the states were established and you had a land mass that 
encompassed, if not an ecosystem, a number of watersheds, etc. 
But the newer the parks, the more you found, like at Redwoods, 
kind of the in and out of the parks and that type of thing.
    I think it's a challenge that we, as managers, should 
welcome, actually, because I agree with Brian that the success 
of the National Park Service is our ability to have community 
with the American public, the basic reason that we have parks. 
And what is it that they offer? Back to that enabling 
legislation of preserving those resources for future 
generations and at the same time providing that visitor 
experience, so the people can get that recreation and meshing 
with the parks.
    I think that's the great opportunity we have. And as you 
saw at Redwood, the partnership has helped us to do that. We're 
still making progress. I won't tell you that we're there, but 
when you drive into the park at least you see the joint signage 
system, so at least there's some tie there for the visitor to 
realize. So I'm now in a national and a State park. All of our 
wayside exhibits, all of our brochures, all of our programs, 
we're trying to make sure they focus upon the very mission of 
the national and State parks because they are almost one and 
the same. And what does that tell the visitor about the area? 
And I think that's what we need to do in all of our parks, 
whether they're urban, suburban or like ours, we're in a rural 
area, but we have a lot of in-holdings stretched out on that 
101 corridor.
    Mr. Souder. Do you want to add anything to that?
    Mr. O'Neill. Well, I guess to underscore the fact that the 
national park system as it's been created by Congress is 
political and it represents a reflection of what Americans feel 
is important to preserve. It may be about field site. It may be 
to commemorate an American who made a big difference. It may be 
the architecture of the military, but it's things that 
Americans, that reflect the American experience and reflect the 
American culture. And it's always going to be evolving.
    I remember the arguments back in 1960 when Cape Cod was 
first established and this was a whole different kind of park. 
But the Park Service continues to evolve as America evolves and 
exactly what part national parks play in American life. And so 
I think what we realize here is that we want people ideally to 
come here and be inspired and see themselves in the history of 
the site, to see themselves in the stewardship of place, to see 
themselves as being inspired to be able to take what they learn 
at a park and see its relevance in their own neighborhood, for 
them to feel inspired to go back and to deal with a brownfield 
site or to restore a little pond that's next to their home, to 
be part of a neighborhood effort to preserve the street.
    And so I think in the National Park Service we need to 
establish the expectation of excellence in how we manage our 
sites and how we represent the best of a practice. And clearly, 
we aren't where we need to be, but the important thing is I 
don't think, no matter how many people you'll hear from, the 
national park system will continue to evolve, because it really 
is a group of Americans who feel if a place is really important 
to them, if it represents their culture, represents an 
important chapter in the history of America and they want it 
preserved. And there's going to be pressure on Congress to 
continue that.
    So trying to draw a fine line, rather than saying we want 
the National Park Service to reflect us as an American society 
and to reflect the history and evolution of this country, so 
our park system has to evolve in the same way that we evolved 
as an American people. What's important 10 years from now is 
going to shock us in terms of what people may want to preserve, 
but it does reflect a continuum of what people feel of their 
culture's importance and how it can reflect, manifest itself in 
the national parks.
    Mr. Souder. Mr. Tollefson, let me move to Yosemite a 
little. That clearly is, as most people would certainly as far 
as natural scenery put Yosemite in or maybe our Indiana 
expression would work here, ``You can count them on one hand 
and have enough fingers left to bowl.'' That is certainly one 
of the premiere scenic parks.
    Can you say for the record roughly what's the visitation at 
Yosemite and how many of those go to the valley?
    Mr. Tollefson. Visitation at the park is about 3.5 million 
a year and the vast majority go to the valley. I don't have an 
exact percentage, but probably closer to 95 percent.
    Mr. Souder. Would you guess anybody who didn't go to the 
valley had already been to the park multiple times?
    Mr. Tollefson. There's a group of folks that love Wawona 
and another that love Tuolumne and spend their time in those 
two areas, but they probably spent time in the past in the 
valley.
    Mr. Souder. In the other areas of the 3.5 million, what 
percentage would you say also visit the other areas? Do you 
have a percentage, it's like valley only, roughly half?
    Mr. Tollefson. Actually, this summer we did a new survey to 
find out that very question. It varies from time of year to 
time of year, the south entrance, the 41 entrance is the second 
most used entrance and that's the one that goes through Wawona. 
The big trees at Mariposa Grove get large visitation. During 
the summertime the Tioga Pass is a big draw for people who are 
making a long summer trip. We're probably closed with snow 
today. So it really varies with the season and with the 
individual. But we'll have a complete study that we'll be glad 
to share coming out in February.
    Mr. Souder. What percentage of the park is wilderness, 
roughly, or treated as wilderness?
    Mr. Tollefson. I don't know that off the top of my head. 
It's about 90 percent.
    Mr. Souder. The vast majority of the park. You certainly 
have to qualify for, if not the longest, one of the longest 
period of study of how to manage the valley. Is that still on-
going or as far as transportation systems, in and out, number?
    Mr. Tollefson. As you know, we were required by the Ninth 
Circuit to go back and redo the Merced River plan. We finished 
that plan in July and we're moving forward to implement the 
final stages of the flood recovery. We're down to our last $30 
million on finishing that project.
    Mr. Souder. It's been an interesting kind of process to 
watch. I'm sure more interesting to an outsider than being on 
the inside. One of the dilemmas that we face when we look at 
the Park Service is how much attention do you pay to the local 
communities at the edge who are impacted by it, versus the 
visitation of those at Yosemite, probably roughly may have four 
markets. One is an immediate local, one would be the San 
Francisco and northern California and one might be a west, and 
then there would be the once or twice in a lifetime visit from 
the rest of the Nation that want to see Yosemite. And they may 
have a totally different view of the park than the local 
residents.
    How do you see kind of the tradeoffs in the priorities when 
you're dealing with what everybody would agree is one of the 
crown jewels and one of the goals of the United States should 
be anybody, in my opinion, anybody who wants to get to Yosemite 
ought to get there at least once or twice as a crown jewel.
    Mr. Tollefson. One of the key elements is not looking at 
the total number of people that are arriving at a park like 
Yosemite, but what's their experience and what are the impacts? 
And we really focused on that visitor experience and you can 
mitigate and increase the number of people who have experienced 
something and reduce visitor protection at the same time.
    A good example this last year, we rebuilt Yosemite Falls 
trail with $13.5 million of donated money and it has increased 
the number of people who can go to the Falls without feeling 
crowded, but it's also increased the resource protection. So 
looking at that instead of at solid numbers, the shuttle bus 
system that was referred to, now carries 3.5 million visitors a 
summer, riders a summer. And people are parking their car and 
leaving it. So that piece of the congestion by managing parking 
differently than we did in the past, reduces it.
    But it is hard to balance local opinion with the national 
opinion on how a park should be managed. And that goes to what 
Mr. Pierce and Mr. O'Neill said, educating people of the 
diversity of the parks and even the different kinds of 
conservation systems, like State parks is critically important 
so that more people are interested and more people are 
involved.
    Mr. Souder. Your situation is different than the previous 
two we were zeroing in on, but at the same time you have 
inholdings in Yosemite as well as Sequoia, which has them, and 
King's Canyon that are very historic inholdings. But as you 
look at the intense use of Yosemite Valley or the evolving 
diversity in Redwoods Golden Gate and some of the other park 
systems, and as you watch the--and recreation uses and the 
diversity and the changing National Park Service.
    And as we watch the Forest Service develop wilderness 
recreation and less timber cutting, and as we watch BLM get 
national monument status with wilderness and recreation areas, 
how do you see the Park Service as different from those two 
agencies?
    Mr. Tollefson. The Park Service's mission is different. 
What people do when they come to the park is recreation. The 
mission of conservation for future generations is much stronger 
than the other agencies. And that affects the way we manage 
parks and affects the uses that we have, again, making sure 
that the general public understands that because many people 
don't understand the difference between the National Park 
Service and the State parks or in our case the Forest Service.
    So educating people, helping them understand where we're 
going and the challenge for us in California is it's a very 
diverse State. Yosemite is now reflecting in its visitations, 
in the case of California, in helping people understand where 
they are, what there is to do, how they can enjoy the park and 
what the value of the park is to them, is a real challenge.
    Mr. Souder. So in talking toward the vision of where the 
Park Service is headed, let me get into some specifics. The 
Sierra National Forest, is that around you, is that correct?
    Mr. Tollefson. Yes.
    Mr. Souder. Do you have snow skiing still in Yosemite?
    Mr. Tollefson. Yes, we do.
    Mr. Souder. So that wouldn't be a difference. You have 
less--do you have different restrictions, no lifts? Would that 
be a difference in the snow skiing?
    Mr. Tollefson. Actually, Yosemite is one of the last 
remaining areas, ski areas in the national park system. Most of 
them have been removed, but our ski area is the first ski area 
in California and the second ski area in the country.
    Mr. Souder. At the Owanee, there used to be swimming pools 
and different types and you had the firefalls. Certainly in a 
National Forest Service, the lodging would be regulated 
differently. Is that correct in the Sierra?
    Mr. Tollefson. Yes.
    Mr. Souder. The wilderness is actually managed more 
strictly in the Forest Service because it's a quirk of law, but 
in the non-wilderness areas of the Forest Service, they tend 
not to have as restrictive of covenants where you can have 
inholdings and new development. Would that be a difference 
between you and Sierra or Sierra being managed around you in a 
way similar to the park?
    Mr. Tollefson. Well, the forest is managed differently in 
many, many ways.
    Mr. Souder. Is there still timber cutting adjacent to the 
park?
    Mr. Tollefson. There is still some timber cutting adjacent 
to the park.
    Mr. Souder. OK, so that would be a big difference.
    Mr. Tollefson. The camp grounds are managed differently. I 
don't believe the Sierra has any hotels on it, but the hotels 
also go back to what we've been touching on. They originally 
were put in, the Owanee and the El Tovar and all the beautiful 
hotels in the park system were put in to raise awareness of the 
national parks. Would we do that today? No. But in the day when 
they were trying to build a constituency for parks, that's why 
there's more lodging, especially in the older parks than there 
are today and why there's not in the forests, for the most 
part. They have the occasional small facility.
    Wilderness, we have an organization in the southern Sierra 
called the Sierra Federal Managers and several times a year the 
Forest Service supervisors and the Park Service superintendents 
get together to help alleviate as many differences as we can so 
that a visitor can transition, if they're backpacking, for 
example, from the park on to the forest and not have to start 
all over again, if you will, as they move from one to the 
other. The numbers are pretty much the same. We try to keep the 
fire and use limits the same and so we try to make it as easy 
as possible within those areas that we manage similarly.
    Mr. Souder. If you were trying to describe to somebody 
using Great Smoky National Park and the forest areas around 
that, how would you tell them the National Park Service 
difference from the Forest Service there?
    Mr. Tollefson. The National Park Service is there for 
primarily two reasons. One for use and the other for 
preservation. The forests around them are more multiple use. So 
they have mountain bike riding. They have motorized vehicle 
access on the trails where the Park Service does not.
    Mr. Souder. And that would be true around the Smokies?
    Mr. Tollefson. Yes, that's true around the Smokies as well. 
So there are quite a few differences in the way that non-
wilderness areas are managed on the Forest Service, probably 
the biggest being motorized access off of roads in forests. The 
other two are dogs, livestock raising, timber harvest, mining, 
the list is fairly long.
    Mr. Souder. But a lot of those are getting restricted in 
the Forest Service and what I'm trying to figure out is if we 
don't have clear lines over time, what's the vision of where 
the Park Service is headed? And what I've learned in the Park 
Service is there is no such thing as a role.
    You kind of work it by individual park as Mr. O'Neill has 
pointed out. It's a political process and that means an 
Olympic--one of their big lakes is motorized and one of them 
isn't. You can have dogs at Golden Gate in certain areas, but 
not in another park. That isn't really a defining park image 
any more of motorized/nonmotorized, clearly jet skis are 
limited at more park areas than forest areas, yet Cape 
Hatteras, that's one of the big debates and in the Great Lakes, 
it's a big debate, and also at Apostle Islands. What I'm trying 
to sort out is when we say these are Park Service values, these 
are Forest Service values, these are BLM values, as we--to me, 
to some degree and one of the debates we're going to have in 
Congress is about Mount St. Helen's.
    Here it's like Lassen. We now can see how it's developed, 
how it's recovering, but Mount St. Helen's is still puffing 
away out there and why isn't it a park? The man who manages 
that also wonders the same thing. He's got forests. He can see 
the forest part because there's still timber cutting, but 
around the volcano monument, they're not. It's functioning like 
a park, but it's in the Forest Service.
    So it's going to be hard for the general public to unite 
around well. We need to have a National Park Service with this 
vision and that's why I'm trying to sort out what kind of 
vision, where are we headed?
    Mr. Pierce, could you describe a little bit how you see--I 
know there is still timber cutting going on, obviously around 
you. Do State parks and Federal parks have similar standards at 
this point or are you still a little different?
    Mr. Pierce. I think the State parks and the national parks 
have very similar standards. I think your comments about other 
agencies, like the Forest Service, certainly ring true and I 
think you can see that struggle, for instance, the forests 
around us, one of the big issues right now there is ATV use and 
they're struggling with their multiple use concept.
    In the past, if you could get on a logging road, you were 
fine with your ATV. Well, now they're seeing resource impacts 
and they're saying well, we need to take a step back here and 
look at those impacts and I think the public struggles 
sometimes with well, gee, I thought this was the Forest Service 
and with the Park Service we, for years, maintained that 
protection of the resource as being a primary function.
    I guess personally in some ways it's a challenge, but it's 
an opportunity for all Americans, I think, to look at the 
bigger picture of what makes America great and what it is we're 
trying to preserve. And yes, there will be differences in 
missions, but just like the Wilderness Bill and the fact that 
wildernesses in many agencies, management agencies' 
jurisdiction, I think there's again common ground and I think 
those neighbors, like the Forest Service up there around us, 
how can we work with them to provide that variety of visitor 
recreational experiences, but protect the resources at the same 
time? As you say, Mr. Chairman, state what it is that the 
National Park Service is all about, state what it is that the 
Forest Service is about and then what are the commonalities.
    Mr. Souder. If I can jump to Mr. Neubacher for a minute. I 
have to tell you a funny story about Point Reyes, because I 
haven't been there yet. I've obviously seen it and been around 
it and read about it and my first knowledge of it was I was 
actually a staffer at a hearing here in San Francisco years ago 
that was on public housing. It was the Children and Family 
Committee. And then-Congresswoman Boxer was there and I was 
working for then-Congressman Dan Coats before he became a 
Senator. And during the hearing she kept slipping him notes 
that we needed to go up to Point Reyes afterwards because it 
was such a beautiful seashore and everybody was looking very 
intent on the hearing subject, but she was lobbying for us to 
go up there for dinner and visit the park later. And so it 
stuck in my mind. That was probably 20 years ago now that she 
did that, long before she was a Senator.
    Could you describe a little bit the unique challenges you 
have in the seashore? You predated Golden Gate. Is that 
correct?
    Mr. Neubacher. Yes, we were established in legislation in 
1962.
    Mr. Souder. In effect, you were kind of a, tell me if I'm 
describing this wrong, but almost like a wilderness zone and 
you had this big military-dominated compound of space, whether 
it was Crissy field and the forts and Mason and Fort Point and 
a lot of this in the kind of the head where the Golden Gate 
area is and you were to the north of it.
    Is your visitation predominantly from the region or what 
kind of visitation do you get at your site?
    Mr. Neubacher. Well, over the last 5 years, every year we 
exceeded over 2 million visitors and that varies from, 
depending on--we're often weather dependent because we're on 
the coast. We have 80 miles of coastline within the park, which 
is pretty fabulous when you think that California has about 
1,200 miles of coastline, so we do a lot to protect the 
California coast.
    But our visitation fluctuates, depending on the year, 
anywhere like last year it was 2.1 million at the peak when the 
economic situation here in central California was like 2.6. A 
lot of people were coming out. So it just varies from year to 
year and it's not growing that dramatically, just slowly, but 
the park, just to get back to your question, was really, it was 
almost a miracle. It was established in the 1960's because 
there was a great citizen effort to put that park together.
    And we're a little further north, there's a little distance 
between us and the bases to the south, but we administer about 
some 70,000 acres and it's pretty fabulous country. It's in 
great shape. We have wilderness zones to working landscapes. 
It's a diversity of landscapes and it's kind of interesting 
because we're in between--clearly not Yosemite, even though we 
have designated congressional wilderness a third of the park. 
But we're not Golden Gate either. We're kind of an in between 
park.
    And I worked in Alaska, I worked back East and a lot of 
places, but it's pretty special and it's very natural and if 
you look at our visitation, about 70 percent comes from the 
Greater Bay Area; 30 percent comes from the Nation. But we get 
comments on a lot of our projects worldwide now. So I'll get a 
comment on an issue from Belgium. We get written up a lot in 
the New York Times and a lot of different newspapers, so it's 
becoming more and more of an international destination.
    If you walk Bear Valley Trail on a day during the summer 
you'll hear six different languages and that's because we're so 
close to this wonderful international city of San Francisco. 
We're really only an hour's drive away, but you can have 
everything from elk to mountain lions to coyotes really in your 
background in just an hour's time. We've got 147 miles of 
trail, so there's plenty of back country to explore.
    Mr. Souder. And you're a seashore, right?
    Mr. Neubacher. National seashore, yes.
    Mr. Souder. Well, as a practical matter, what does that 
mean in the name? Why would you be a national park? Is there a 
distinction between it? I mean obviously a seashore is on the 
water.
    Mr. Neubacher. You know, it's interesting, in our 
legislation, it says in the enabling legislation, it says that 
we should ensure that the natural environment dominates. So 
it's kind of interesting. It was a political decision back in 
the 1960's with all the seashores coming on board. We were the 
only one that got established on the West Coast, but as you 
know, Cape Cod, Cape Hatteras, all those got established on the 
East Coast.
    But it was this big movement to really protect America's 
coastline and there was a strong interest in our county to 
really move it forward. And if it hadn't happened, that part of 
the country probably would have 100,000 to 200,000 people 
living in it now, but a lot of people in Marin County really 
wanted it saved and they did a great job. It was almost 
entirely carved out of private land.
    Mr. Souder. It's not really a swimming beach, it's more of 
a walking beach?
    Mr. Neubacher. For most of us, unless you have a big thick 
wet suit on, the ocean is very cold.
    Mr. Souder. Do you allow dogs and beach walking with your 
pets?
    Mr. Neubacher. We do on leash, on leash only. We have two 
or three designated areas where people can go with their dogs 
on leash. And we worked that out with the community. We rarely 
get complaints about dogs and dogs off leash. I wouldn't say--
it's still a little bit of an issue, but we worked it out 
pretty much.
    Mr. Souder. Let me ask a question of Mr. Pierce. I know I 
have this data from the summer, so I have the data if you don't 
remember, but is the State--clearly, everybody is under a 
budget crunch and if you could provide--we'll give you a 
written request with some of the dates of what your full-time 
employee equivalent was for this year, this year and this year, 
but I would also be interested in looking particularly at Mr. 
Pierce and Mr. O'Neill where you have State park partners, 
whether they've had a similar squeeze or whether it's a more 
dramatic squeeze. I believe it's been a more dramatic squeeze 
at the State level than the Federal level.
    Certainly, the number of State parks added in America has 
not kept up with the space we've added at the Federal level and 
one of the challenges that we face, some say well, places like 
Golden Gate should have been more of a city than a State park. 
On the other hand, if they don't do it, then the space is lost. 
One of the challenges that we have at the Federal level, where 
can we do partnerships?
    We have this in Indiana too, with Indiana Dunes. It was 
there preexisting the Indiana Dunes National Lakeshore, but the 
State simply hasn't--I think they've created one new park in 30 
years that they haven't kept their funding proportionally, 
they're having to close certain campgrounds and have a tighter 
budget restriction than we've had at the Federal level, not 
that we've had much at the Federal level, but I wonder, because 
in California, you had--Indiana was one of the first major 
three State park systems, early innovator, flattened out.
    In California, you were way ahead and clearly from Prop. 
123 on, you've had a different pressure on State property taxes 
in California. And I wonder how you see this evolution playing 
out in California? I mean everyone is thankful for everything 
you can get and one of my particular concerns is Angel Island 
because there, clearly the State wanted to keep it. There was 
concerns and we did our bill that we were going to try to take 
it over. On the other hand, the stuff is falling down.
    Mr. Pierce. My impression from Redwood?
    Mr. Souder. Yes.
    Mr. Pierce. We could get you the exact figures and Ted and 
Marilyn may have some of that on the next panel also, but my 
perception is that all the States and for sure, California is a 
good example and the national parks, have filled that pressure. 
An example to give you, it's not just flat budgets per se. It's 
also that incremental creep of various things.
    You may be aware this summer when they were up there, we're 
putting together a joint maintenance facility, State and 
national parks which I think is the right way to go. It's going 
to be excellent where you have one carpenter shop, one plumbing 
shop, all that makes a lot of sense in an efficient operation. 
Well, as we go through this and didn't take quite as much time 
as some of the stuff in Yosemite, I guess, but it takes years 
to put a project like that together.
    In 2004, when we actually went back and looked at 
construction costs in California because nationally they were 
looking at--well, we'll give 4 percent, Mr. Pierce. That's 
about what inflation has been nationally. We went back and 
actually checked. Well, in California in 2004 in construction 
the inflation was about 13 percent. And it doesn't take many 
years like that to where you're feeling that impact in your 
budget. So it has hit California State parks and it's hit the 
national parks in California.
    What we're trying to do is address it with our needs and at 
the same time address it with the most efficient/effective 
operation we can. And so we like the partnership in that it 
gives us some options and latitudes. Sometimes we can't hire 
somebody that we need on the Federal side for whatever reason. 
Well, I can go over to Marilyn and say, ``Marilyn, you know, 
this is a real key position we need. We can't find a way to do 
it. Can you work with us?'' And you bet, we can find a way to 
make that a State park employee, but in actuality, they're 
working in the national park as much as the State. And we've 
got a lot of those examples that help both the State parks in 
their struggle with budget and at the same time some of the 
national parks.
    Mr. Souder. And Mr. O'Neill, as you answer that question, 
could you--one of the things I've wondered is whether 
structurally inside the Park Service and it's kind of what I've 
been hitting at the edges of. Whether part of the vision of 
where we're going ought to be to say look, you have this kind 
of more wilderness park image then we have, so how do we adapt 
the National Park Service for the urban realities today where 
we have a shortage of green space and the usages may not be the 
same, but they're part toward it and do we actually, we're 
doing that kind of bit by bit, but I don't sense there's kind 
of a thematic approach to this.
    Mr. O'Neill. I'll answer the first, the State park thing. I 
think Bill hit upon the major points. I think it's a 
challenging time, obviously, at both the Federal level and at 
the State level. But to me, it's about--I guess the sense of 
two units, two organizational units at Federal and State level 
that can share a common vision about a place and understand 
that they're going to have to be more resourceful in terms of 
how that vision might be achieved.
    I think the fact that we would rely exclusively on the 
Federal Government to solve that problem or just the State 
government to solve the problem is not realistic. Do the State 
government and the Federal Government need to be full partners? 
Yes. But I think an engagement of the American people on the 
challenge can suggest any number of alternative ways in which 
funds can be generated.
    So I think we're seeing a reality that is sort of circular. 
People support what they know and care about. If they don't 
know and care about, they're going to put their support 
elsewhere. If not enough people feel the national parks or the 
State parks are important and convey the importance of that to 
their elected officials, their elected officials have many 
other priorities to fund.
    So I don't think we're going to solve the Park Service 
funding problem until we solve the relevance issue. Until a 
greater number of Americans see relevance in the National Park 
Service and their lives and they feel it's an important 
priority, they're not going to convey that to their elected 
officials in strong enough terms that elected official 
regardless of party or ideology, how would they expect them to 
go to bat?
    So I think we're in very competitive times. Parks are in 
competition with a lot of other worthy public good and the only 
way that you change that is to bring a stimulated public behind 
the importance of these places to the level that they're 
willing to convey that support personally in terms of what they 
give and in terms of how they convey their advocacy through 
their elected officials. To me, we're not going to get where we 
need to get until that's done.
    Now what is our reality today? You know at the Federal 
level we've had our challenging times, I think, as many people 
will attest to. I think our issue at the Federal level really 
is twofold and the budget challenge we have is twofold. One is 
the fact that up until last year where we had a full pay raise 
covered by Congress, we had to eat the pay raise and a park the 
size of Golden Gate, that's $1 million a year, just to eat the 
difference in the pay raise costs. That's 8 to 10 positions a 
year that we were losing as a result of just that one small 
issue. It seemed small, but when you get down to the park 
level, it's not small. It's major.
    The other thing is that in addition to that inflation 
reality and not paying the pay cross is that at the park level, 
I hear people saying well I don't see a green and gray uniform 
out there. I never see the ranger. I never see the interpreter 
ranger and at the management level we've had to absorb all 
these new responsibilities without sort of funding to support 
them and they're all worthy mandates. There are societal 
changes and there's new mandates, so--but obviously all of us 
continue to acquire important land, but there's hardly ever 
funds that are appropriated to include it.
    Just the public's right to know, the FOIA, the Freedom of 
Information Act, at Golden Gate it takes us three quarters of 
an FTE now just to respond to Freedom of Information Act. That 
was a responsibility that we didn't need to deal with a number 
of years ago, not to the extent at which people are demanding 
that information today, but that's three quarters of an FTE, a 
uniformed person that's not out in the field.
    Homeland Security has brought a dramatic change in terms of 
responsibilities to the national parks in terms of being able 
to--I mean we never used to have to have security in the 
Headquarters building. Now it takes a full FTE just to provide 
the security support in the Headquarters building to deal with 
the reality of a post-September 11th world.
    And if you look at the Golden Gate Bridge and the 
protection that's provided there, so the staggering new sort of 
metric requirements that we have in reporting just continue to 
compound. And not to say any of them are bad, but when you get 
down to the level that is implementing the new maintenance 
management system at Golden Gate requires four FTE now just to 
be able to manage the complex information data management in a 
park of this size. And that's immensely important because that 
tells us how we're managing our asset base. But that's four 
rangers that are not in the field doing interpretive work.
    So I think to get an understanding of the budget, people 
need to understand it's not that we make a conscious and bad 
choice not to have an interpretive ranger there is we have to 
make hard decisions based upon mandates that are worthy, that 
are passed down, that we have to respond to that really create 
more administrative work which doesn't allow us to have as many 
people in the field.
    So it's between those two factors, unfunded mandates and 
the lack of covering inflation costs, particularly paid 
increases in combination that's creating the problem.
    It's not that people don't care about the Park Service. 
It's just that we were very gracious for the support that 
Congress gave us for the operating increase this year and to be 
able to cover the pay increase. It makes a huge difference when 
you get down to a park level. But I think there are some 
structural issues that have to be dealt with. There are 
structural issues to look at a different process and how parks 
may be funded. It's an understanding that parks can't 
completely rely upon appropriated funds to be able to make a 
difference in the communities they serve in a more diverse-
funding base that's going to be important. And revenue 
generation has to be a part of the formula, the ways that are 
appropriate that don't close off people from access to the 
national parks that generate funds to support their sustaining 
operations.
    So it's complex, but I want to convey that at least in 
central California the same experience that Bill conveyed in 
northern California is the case. We want to work together. 
We're finding resourceful ways to work together. We're both in 
challenging times and we're both taking that challenge in a 
positive way to try to make a difference and Angel Island 
Immigration Station is a prime example.
    Mr. Souder. I know I've gone way over in this panel. I want 
to ask two more questions. One is I want to give you each an 
opportunity if you would like to comment on the new management 
plans. I didn't think there would be a big rush, but new 
management policies are being floated. Does it look like that's 
going to dramatically affect any of your parks?
    Mr. O'Neill. I mean I do think we've extended the deadline 
sometime in February and I think a lot of us are now working on 
the management policies. I went to Big Bend myself. I happen to 
be the chair of the National Wilderness Steering Committee. We 
went there and we went through Chapter 6 basically, 25 of us, 
word by word for 3 days, so we're now getting to the point 
where we're providing good feedback through the system and I 
believe now that we will make--this document could be very good 
in the end.
    Mr. Souder. The other thing is I wanted to give each of you 
a chance to react to these things, as we look ahead because if 
we're going to have a 100-year vision for the big anniversary 
and it's an opportunity to do a Mission 66 type thing and say 
what should we focus on? Mission 66 focused on making 
architecture with high ceilings so the energy costs go up, but 
it did get a lot of recreational facilities in the United 
States and it focused on the parks. Our legislation is out 
there focusing on, ``OK, how are we going to deal with the 
staffing question?'' We talk about maintenance, but what about 
the people?
    In the real world, in addition to this, in trying to manage 
our budget because it's a zero sum game, does this go to 
Medicaid? Does this go to pay for Medicare? Does this go to pay 
for roads? Where does it go in our Federal budget? 
Immunization? Asian bird flu? As we work this through and work 
with the park dollars that part of the question is like at 
Alcatraz, how many interpreters you have versus tape systems? 
How Costco works versus traditional grocery store? Where are 
our tradeoffs versus a preference for live human help? How much 
of this should actually be in research? Do we take an 
interpretive ranger, but not do the core research and who is 
going to do that?
    What about the inholdings in the parks that we haven't 
completed? What about when we have new land opportunities or up 
at Redwood where you have watershed potential problems outside 
the park? Would it be better to get control of that land 
outside the park on the watershed before it does damage 
internally, or is this for rangers, or is this for new visitor 
centers, or is it for research?
    And what would help grab the public mind some kind of 
combination focusing on one and maybe Mr. Neubacher, you could 
start because this is your crack to kind of go on record and 
all of you, the Park Service, you all work in many diverse 
places and go to other parks and meet other superintendents. 
How do we capture this? What should we do legislatively if 
we're going to try to tackle something?
    In Mission 66, it was visitation services. Are we better 
off going after one thing? Mix some new and land with 
personnel? I'd like to hear some comments.
    Mr. Neubacher. I really think of the Park Service as being 
sort of the best of the best. It really is the heart and the 
soul of the Nation and that's how I would separate us from the 
Forest Service. All of our sites are nationally significant and 
really glorious places.
    I see this 2016 date being a tremendous opportunity for us 
to highlight the national park system and put a spark, put a 
separate date and we lead up to generating this sort of 
tremendous momentum for completing the National Park Service, 
fixing the infrastructure, getting our staffing in good shape. 
I mean all of the above.
    And working with our partners, I see this being a public 
sector, but a partnership thing. It's cooperative conservation 
and we really highlight all these great things across the 
Nation that are going to occur and I know that the Park Service 
is, the National Leadership Council is putting together sort of 
a menu of things we'd like to accomplish, but I see it's the 
great date to strive for and get a lot of things completed 
before 2016. And what a tremendous opportunity to really move--
--
    Mr. Souder. Because you really have to start that 17 
years----
    Mr. Neubacher. You've got to start now. I think today. I 
was coming back from Big Bend, riding back in the car with a 
couple of the associates from Washington and we were trying to 
portray in our minds what could we really accomplish and I 
think it would be wonderful to work with Congress to put 
together a package of these, whatever we want to say, 20 
things. But I do think it's an opportunity and a lot of people 
think the Park Service is complete. I personally don't.
    I think there are a lot of gray areas that need protection 
by the Park Service. I'd love to see us do that. I think--I 
don't want to use the word Mission 66, but I'd love for us to 
move the backlog really forward in a big way in terms of 
meeting our needs and infrastructure and so that by 2016 the 
Park Service, we can all say with great pride, it's really in 
good shape. And not just infrastructure, in our resources, too.
    I've got 30 federally listed species at Point Reyes. I 
would love to say in 2016 all those are in phenomenal shape. 
I've got another 50 species of concern. So I have the highest 
density of spotted owls anywhere in the range, so I've got a 
lot of things to take care of. I'd love to have programs in 
place that ensure those in perpetuity.
    Mr. Souder. Mr. O'Neill.
    Mr. O'Neill. Don said it all. I think getting to this, 
there has to be a compelling vision that people can buy into. I 
can tell you how tired I'm getting of this whole thought of 
having to dumb down the national park system to deal with 
current budget realities. That's something we have to do, but 
that's not a vision for the future.
    I got really inspired recently in a meeting where a 
prominent foundation head challenged us in the Park Service and 
she said, ``Brian and John and Rob,'' we were three Park 
Service people there. She said, ``help me understand 
something.'' She said, ``when I visit a national park, I would 
think that the best in practice is in place and I'm learning 
from it and I'm being inspired by it.'' She said, ``if I went 
to Yosemite National Park, I would expect the very best of 
water conservation in place. And then everywhere I looked and 
everywhere I went sound water conservation measures were in 
place. And I was seeing them and I was trying to see how they 
related to my personal life. But I was learning from it. I was 
being inspired by it. And if I went to Yellowstone National 
Park, I would think the very best in energy conservation was in 
place. Again, I was learning from it. It was all around me, all 
the new technology, and I was being inspired by it.'' And she 
kept going on.
    She said if I went to Rocky Mountain National Park, I think 
the very best in trail systems, that trails were actually being 
laid out in a way that was sensitive to the environment, that 
new technology was being applied in terms of geoweb over 
wetland areas. And I saw that and I could see how it applied in 
my own life and my own community and I was being inspired by 
it.
    And she finally ended up after a series of these and she 
said finally, ``I don't think I've ever had a healthy meal in a 
national park.'' And she said, ``that's got to change.'' Now 
we're working on that. But that's the inspiration. You've got 
to have something that people can be inspired. The national 
park system should represent the very best of what America is 
about because it is about America. It's about the American 
story, the American experience and we should be the very best 
and we're going to have to find a new way to fund it, a 
different way of funding it, a different combination, a way in 
which we bring private philanthropy together with public 
funding and new approaches.
    And I think that's the inspiration that we need. We need to 
see it as the best and we have to exemplify best practice and 
we need to inspire people by it.
    Mr. Souder. Mr. Pierce, maybe that's not easy to follow.
    Mr. Pierce. I was just going to say that.
    Mr. Souder. Maybe because it would be--one of the things I 
appreciate you taking the time and I appreciate the second 
panel being patient here is I want to thank on the record the 
National Park Service. As we have done these hearings there has 
been more flexibility, so first of all I want to thank Jonathan 
Jarvis for letting you all testify, for MNL and Steve Martin, 
who have increasingly become more comfortable that I'm not 
trying to run some kind of hit operation on the National Park 
Service and we're actually doing an exploratory thing.
    We've talked it through in core ops and business plans and 
I understand the budget pressures as much as the National Park 
Service does, but I believe that we need to look at our vision, 
figure out how to fund this.
    And so this is really the first time we've had four 
superintendents up with me being able to roam freely through 
this discussion. We've had them present, ask an occasional 
question and so that's why I'm taking a little longer today 
than I have at some other hearings with this.
    One thing that a lot of people don't realize and maybe you 
and Mr. Tollefson would see, a few of the other parks that 
you've worked at, so you can give kind of the--and then make 
your comments, to show some of the holistic approaches that 
many of you bring because you've many times worked at diverse 
parks and different places.
    Mr. Pierce. Well, you've asked the wrong guy for the short 
answer.
    Mr. Souder. Because you've been to a lot----
    Mr. Pierce. I've been to a lot of parks. But I agree with 
you. Maybe I will preface my short remark with I have been in 
Alaska, Camp Maya and Lake Clark and Aniakchak and I've been 
down the Everglades and I've been to the Great Smokies and 
Shenandoah and Devil's Tower and Capital Reef and Olympic and 
Glacier and Grand Canyon and Crator Lake and it goes on.
    But I will say this, too, that there is a common thread in 
all those areas that I've worked and I guess I would want to 
thank you and the other Members of Congress that have put 
forward this 2016 approach because I think that's the right 
approach. And my vision is that we need to keep it uncluttered 
and we need to tell the American public right up front with 
honesty that yes, the national parks is the best idea that we 
ever gave everybody in the world, and yes, it is important and 
we should in a nonpartisan way work together to make sure that 
vision is followed through for our grandkids.
    And of all those parks I've worked at I had my conflicts 
with people. I was a ranger in law enforcement for many years, 
but you know, I never met anybody that when I talked with them 
about preservation of the resources and said well, what would 
you like your granddaughter to see or your grandson to see when 
they come here?
    I never heard anybody say I don't really care what they 
see. I mean, to a person they said, ``I want them to see what I 
see. I want them to experience what I experience'' and you 
know, that's the uncluttered message I think we need to get 
across.
    Now, if I had one thing to say of what to do with it from a 
field person with all those parks, I'd say try to fund what you 
can and trust the managers in those parks to work with their 
neighbors to do what's best for those parks. One of the 
problems I've had especially in the last number of years there 
are so many different accounts with so many different things 
attached to them, that as a manager, it's very difficult for me 
to focus on what's important here. And if we could put it into 
the operations of the National Park Service and then hold the 
manager accountable for the best management of the parks, I 
think that would go a long way to helping us do the proper 
management in those areas.
    Mr. Souder. Thank you. Mr. Tollefson.
    Mr. Tollefson. My career has spanned nine national parks 
from Alaska to the Virgin Islands and Great Smoky Mountains to 
Yosemite and fill in the blanks in between. And it's been a 
wonderful opportunity to give back to the Nation.
    Relative to the 100th anniversary of the National Park 
Service and this hearing being focused predominantly on 
partnerships, it's important that we recognize as I know you 
know that the State of California protected of Yosemite for the 
first four decades and we are moving forward to our 150th 
anniversary 2 years before the 100th anniversary of the 
national park system.
    I think, building on what's been said, my overarching 
message for that 100th anniversary is welcoming the diversity 
of this country to their national parks and to their heritage, 
because it is about protecting the best places in the country 
and the world and the heritage of this country and making sure 
we reach out and welcome people who don't normally think parks, 
who didn't have the opportunity to grow up, as I did, 
backpacking in the North Cascades at a very young age. And how 
we do that is an interesting problem.
    We need to focus on the backlog and the fee program is for 
the large parks that have a fee program is a wonderful 
opportunity to reach that, but it's not enough.
    As Brian said, we need to find a new way of moving forward. 
A fifth of our operating budget comes from donated funds and I 
think there needs to be a new look at the partnership between 
Congress and the national park system and with partners that 
can really help us move into that new age.
    We can't continue to manage the way the first half of my 
career, where it was about being in the park and management of 
park lands as opposed to the second half of my career, which 
has been about what partners out there want to help us. Because 
all of those partners are stewards of the land and the more 
partners we have, the more stewards we have. And getting people 
that the Park Service professionals and those who care about 
parks to understand it's all of our responsibility at the 100th 
anniversary, I think, is critical.
    Mr. Souder. I want to thank each of you. It's a tremendous 
challenge. There are a couple of things I want to make sure 
that we get in followup and I don't know whether a page or two 
would be helpful and we can dig some of it out, but if you 
could on the Yosemite fund which is clearly one of the model 
private sector. Also, I know I visited, one of the visits I had 
there at Yosemite.
    I'd be interested in if you could give us a little bit on 
this and then we can followup with the headquarters to see 
where else this is occurring, but I was there when there was 
like a 2-day meeting of researchers from different universities 
who wanted access to the park.
    And the discussion was how can the park, how much should be 
coordinated? How can you match up researchers with the needs? 
How can we do better utilization of private sector research and 
public sector research and matching.
    And if any of you have any--I'm a big believer that some of 
this extended learning in the Park Service is the No. 1, 
clearly, the Presidio has more historic structures than 
anywhere in the United States, but you have multi-periods of 
history and not to mention the Maritime Museum.
    But how to use the Internet because clearly it's the No. 1 
cultural, the No. 1 wilderness, the No. 1 wildlife agency in 
the United States and as the world is changing, can we keep up? 
When I was here, Mary Scott Gibson helped take us around and 
then she wound up down at Carlsbad for a while and she matched 
up with my daughter who was doing a bat project back in 
Indiana. And she got her a whole bunch of material, enabled the 
kids to hook up and talk with her or arrange with her down at 
Carlsbad about the bat project. Now those kids were in a rural 
area. They're never going to get to Carlsbad Caverns. Or maybe 
a couple of them will, but that is the place where you see 
these thousands of bats.
    And if you're within 50 miles of a park, often you can tap 
into that, but how can we spread this through multimedia, 
through Internet, to be able to tap into the tremendous 
resources, and what would that do to enhance a different type 
of visitation. The Internet is getting better, but how to be 
created with that is a huge challenge and we're looking for 
those kind of ideas and how we might blend them.
    So thank you again for all your service. I thank each of 
the people who work for you for that because often they don't 
get to hear that and also really appreciate the State parks 
partnership such as you've had. I was very impressed at Redwood 
with how you seamlessly have done that. And also they have the 
only tsunami-ready headquarters in the Park Service. That was 
another unusual thing there. Thank you very much.
    If the second panel could come forward.
    [Applause.]
    Mr. Souder. Mr. Theodore Jackson, deputy director for park 
operations, California State Parks; Gene Sykes, Chair of the 
National Parks and Conservation Association; Greg Moore, 
executive director of the Golden Gate Conservancy; and Daphne 
Kwok, executive director of the Angel Island Immigration 
Station Foundation.
    [Pause.]
    Mr. Souder. Now that I have you all seated, can you stand 
and raise your right hands?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Thank you for your patience as I was late and then spent a 
lot of time questioning the first panel and we'll start with 
you, Mr. Jackson.

   STATEMENTS OF THEODORE JACKSON, DEPUTY DIRECTOR FOR PARK 
OPERATIONS, CALIFORNIA STATE PARKS; GENE SYKES, CHAIR, NATIONAL 
   PARKS AND CONSERVATION ASSOCIATION; GREG MOORE, EXECUTIVE 
 DIRECTOR, GOLDEN GATE CONSERVANCY; AND DAPHNE KWOK, EXECUTIVE 
     DIRECTOR, ANGEL ISLAND IMMIGRATION STATION FOUNDATION

                 STATEMENT OF THEODORE JACKSON

    Mr. Jackson. Well, thank you very much and I want to thank 
you, Chairman Souder, and the subcommittee for inviting 
California State Parks here today. I am here on behalf of my 
Director, Director Ruth Coleman, who unfortunately couldn't be 
here today. She had a pressing engagement in Sacramento, but 
she sends her regards.
    I have submitted a statement, or testimony, that can be 
included in the record. And so, given the lateness of the hour 
and so forth, I'll try and briefly summarize those comments to 
the key points.
    I'm the deputy director for Park Operations. I am 
responsible for the day-to-day operations for California State 
Parks, the largest State park system in the world. We have 278 
units that comprise the system and over 1.5 million acres. One 
of the partnerships that we are most proud of in a number of 
partnerships that we enjoy throughout the State is the one that 
we currently have between ourselves and the National Park 
Service for increased coordination and efficiencies. This 
partnership encompasses seven national parks, seashores, 
monuments, historic parks and recreation areas, the 16 State 
parks, historic parks, beaches and recreation areas.
    The one that is probably the most well known and was 
alluded to in the first panel, the one that we enjoy at Redwood 
National State Park is probably the most developed with an MOU 
that was put in place back in 1994 and continues today.
    Bill Pierce alluded to many of the important success 
stories that can be attributed to both the partnership and the 
MOU, the shared planning, training, coordinating of work up 
there, general plan management agreement that was appropriated 
in 2000. Many successes which we think has actually resulted in 
improved services, service delivery to the visiting public 
there.
    Down here in the Greater San Francisco Bay area, we enjoy a 
strong partnership with Brian O'Neill and Golden Gate National 
Recreation Area and tomorrow you and members of your committee 
will be going over to Angel Island State Park. Angel Island was 
acquired from the U.S. military in 1955. It's a 750-acre island 
park, offers world class vistas of San Francisco Bay, the 
Golden Gate Bridge and Mount Tamalpais. It's alive with 
history, a 3,000-year-old Coast Miwok hunting and fishing sites 
can be found in close proximity to the largest collection of 
American Civil War era military buildings west of the 
Mississippi.
    From 1910 to 1940, the island processed thousands of 
immigrants and during World War II, Japanese and German 
prisoners of war were held on the island, which was also used 
as a processing center for American soldiers returning from the 
Pacific. This is really a remarkable park and I think that 
you'll find your visit tomorrow to be quite enjoyable and 
stimulating.
    That particular park is a great success story for a number 
of partnerships that it enjoys. One of the members of the panel 
here today, the Angel Island Immigration Station Foundation, is 
a nonprofit that has really helped out tremendously in terms of 
providing resources to help with the interpretation of the park 
and the development of the facilities there.
    We have been able to generate significant funds. State 
Parks has budgeted $400,000 from its general fund; $3 million 
from a Cultural and Historical Endowment; and $15 million from 
a bond act that was passed in 2000 that's known in the State as 
Proposition 12. And as you probably are well aware, the Angel 
Island Immigration Station Restoration and Preservation Act of 
2005, which passed through the Congress and now is awaiting 
signature by the President and was actively supported by our 
Governor, authorizes up to an additional $15 million for the 
station's preservation. Of course we're very excited about the 
prospects for that bill.
    There is some other stuff in my comments about our FamCamp 
program which is an outreach program that we use in numerous 
communities throughout the State to encourage participation 
from urban park users or urban communities and low-income folks 
who maybe haven't had as great an opportunity to take advantage 
of open space and park-type experiences.
    I also did want to briefly touch upon the Santa Monica 
Mountains partnership. I was the southern division chief 
located in Los Angeles up until my promotion to the deputy 
director a year ago and I was very involved and actually worked 
as a field ranger down in Santa Monica Mountains back in the 
1990's. It's a great partnership that really is paying great 
dividends again, both for the agencies that are participants in 
it and for the parks going public.
    Down there you have three agencies, the National Park 
Service, California State Parks, and a local conservancy down 
there, Santa Monica Mountain Conservancy, who have partnered 
together both in terms of acquisition and in terms of planning 
and in terms of day-to-day operations and absent those three 
entities being down there, I think you would see the 
demonstrated services down there and I don't know that the 
public would be able to appreciate, have the same sorts of 
resources that they have available to them as a result.
    And this is no more apparent than the most recent 
acquisition this past year of the Gillette Ranch, the King 
Gillette Ranch, which is also known as the SOKA property, which 
was long sought after, both by open space advocates and 
environmentalists down in the Malibu, Lagora Hills area. It's a 
spectacular piece of property with a lot of cultural resources 
on it. The National Park Service, in particular, was very 
interested in acquiring this property. It sits in the heart of 
the Santa Monica Mountains and is really going to allow for the 
three agencies to have a joint visitor center, orientation 
center there, which will really enhance visitors' experience 
there in the park.
    It was only through the leveraging of the three agencies 
and available resources were they able to make that acquisition 
this past year or it may have been lost. And the National Park 
Service in concert with the other two agencies had enough 
funding at the end of the game to allow for planning process to 
ensue, and so they're currently in a planning process to 
determine the public use and the development of that site. It's 
a real great story along the lines of those win-win situations.
    So we really appreciate and enjoy the relationship that we 
have with National Parks. It's an important relationship for 
us. It's important that we try and leverage the skill sets of 
the individual agencies to the benefit of all and we look 
forward to those relationships continuing to grow as we move 
forward.
    Thank you.
    [The prepared statement of Mr. Jackson follows:]
    [GRAPHIC] [TIFF OMITTED] 29335.007
    
    [GRAPHIC] [TIFF OMITTED] 29335.008
    
    [GRAPHIC] [TIFF OMITTED] 29335.009
    
    [GRAPHIC] [TIFF OMITTED] 29335.010
    
    [GRAPHIC] [TIFF OMITTED] 29335.011
    
    [GRAPHIC] [TIFF OMITTED] 29335.012
    
    [GRAPHIC] [TIFF OMITTED] 29335.013
    
    Mr. Souder. Thank you. Mr. Sykes, we appreciate the 
leadership NPCA has shown at each of these hearings and giving 
us a broad overview of the challenges and the funding 
challenges, in particular, and look forward to your testimony.

                    STATEMENT OF GENE SYKES

    Mr. Sykes. Thank you very much. Mr. Chairman, thank you for 
the opportunity to testify before you today. I am Gene Sykes. I 
am the current Chair of the Board of Trustees of the National 
Parks Conservation Association. Since 1919, the nonpartisan 
National Parks Conservation Association has been the leading 
voice of the American people in protecting and enhancing our 
national park system for present and future generations.
    On behalf of NPCA and its 300,000 members, I would like to 
express my appreciation to you, Mr. Chairman, for your 
determination to focus this subcommittee on the issues that 
confront Americans as we strive to preserve our national parks 
and historic sites for future generations.
    NPCA is also grateful for your sponsorship of the National 
Parks Centennial Act, a bill designed to address some of the 
fiscal problems in the park system and make all parks healthy 
again by the Park Service's 100th anniversary in 2016.
    Mr. Chairman, as a native Californian and a neighbor of the 
Santa Monica Mountains Natural Recreation Area in Los Angeles, 
I'm quite proud of my State's role in the development of our 
national park system.
    In 1915, Steven Mather, a California native and the first 
director of the National Park Service, decided to take a group 
of influential people to what was then called Sequoia and 
General Grant National Park to build support for the creation 
of a National Park Service. Mather's ``mountain party'' 
included the director of the National Geographic Society, a 
Congressman from Massachusetts, and vice president of the 
Southern Pacific Railroad. From the first moment they entered 
Sequoia, the beauty of that sublime wilderness touched their 
souls. These men emerged from that trip as enthusiastic 
advocates for the creation of a National Park Service to manage 
an extended national park system.
    Today, California encompasses the largest concentration of 
National Park Service land outside of Alaska. But if Stephen 
Mather were to lead his group on a 90th anniversary exploration 
of our California parks, what might he find? Possibly, that 
Sequoia's once beautiful clear vistas have been clouded over by 
smog, confirming Sequoia's place as one of the five most 
polluted parks in the United States. Venturing into the more 
remote areas of the park, Mather and his company might 
encounter armed thugs hired by foreign drug cartels to 
cultivate illegal crops of marijuana, a threat that causes an 
already poorly staffed ranger force to be pulled away from 
other pressing park protection issues.
    In other parks, Mather would find that insufficient park 
operating budgets are getting eroded by high fuel costs, 
unfunded mandates and other unbudgeted expenses. Increases in 
the base operating budgets for California's national parks 
between fiscal year 2005 and fiscal year 2006 averaged only 2.6 
percent. At the same time, the average rate of inflation and 
mandatory staff cost of living increases were well over 3 
percent, which means the personnel costs for all of these parks 
are outpacing the growth of their overall budgets. This 
imbalance of funding relative to cost has been frequently 
experienced over the past several years and each year, this 
deteriorating budget situation has very serious impacts. For 
example, at Death Valley the park has only 15 law enforcement 
rangers down from 23 a few years ago. They patrol an area 
roughly the size of Connecticut. Only 37 percent of the 
historic structures in that park are in good condition.
    In Sequoia, despite a half million dollar budget increase 
to stop illegal marijuana cultivation, the park still lacks the 
money to restore areas damaged by drug growers. Restoration of 
these areas is essential to prevent their ready-to-use by 
growers in subsequent seasons.
    Redwood National Park has cut its staff to half of its 
required level. The park's 2000 business plan found that the 
park was at 65 percent of its required staffing of 199 full 
time equivalents in the year 2000. Since then, insufficient 
budgets have caused the park's staffing to fall to 100 full 
time equivalents and it's projected to go to 85.
    There are some parks that can get assistance from partners 
in private philanthropy. Golden Gate is fortunate enough to be 
surrounded by a relatively wealthy and extremely supportive 
community that is willing to donate money and volunteer labor 
toward park needs. But Golden Gate is somewhat unique amongst 
the park system. It has the opportunity to tap into a city that 
is rich with philanthropists and thousands of people who 
generously offer their time and talent to support the park. Few 
parks in the country are situated near such great sources of 
private beneficence. And while clearly Golden Gate's partners 
have the potential and the will to lend the park a hand, their 
generosity should not be mistaken for a desire to subsidize the 
park's basic responsibilities. The Federal Government has a 
duty to fund our national parks at a level that enables them to 
achieve the mission of preserving the parks unimpaired future 
to generations.
    If the Park Service is going to engage outside groups and 
philanthropies for work on park resources, it must also have 
the staff and resources to meet its part of the obligations. In 
addition to my own involvement with the NPCA, I'm a sitting 
Board Member of The Nature Conservancy of California and I've 
been quite familiar with the work the Park Service and TNC have 
in partnership in Channel Islands National Park, where TNC is a 
major land owner.
    For over 25 years, TNC has been working with the Park 
Service to restore and protect the resources at Santa Cruz 
Island in Channel Islands National Park especially on habitat 
restoration, essential for the survival of the endangered Santa 
Cruz Island fox. Because of the Park Service's limited Federal 
financial resources, TNC is bearing the brunt of the 
responsibility in preserving this unique ecosystem.
    While Channel Islands National Park received nearly half a 
million dollars in fiscal 2002 through the Park Service's 
Natural Resource Challenge to help restore the native 
vegetation and wildlife on the island, this funding was not 
provided in the subsequent years. Such partnerships required 
that the Park Service be a strong, consistent player in such 
endeavors, dedicating the financial and human resources to make 
these partnerships work.
    As we consider the future of our national parks, we must 
concentrate on the issues of adequate funding and good 
management, for it is from these core foundations that the 
parks draw their ability to protect and enhance their resources 
and to serve the public. Allowing our parks to be overrun by 
invasive species or drug cartels or failing to provide support 
for Park Service personnel, constitutes an embarrassing 
abdication of our responsibility to enhance and protect the 
common touchstones of our national heritage.
    Both the public and the Park Service are doing their jobs. 
The question before us today is can Congress find the 
wherewithal to support in full measure the needs of a national 
park system they had the wisdom to establish almost 90 years 
ago?
    Thank you, Mr. Chairman, for inviting me to testify today.
    [The prepared statement of Mr. Sykes follows:]
    [GRAPHIC] [TIFF OMITTED] 29335.014
    
    [GRAPHIC] [TIFF OMITTED] 29335.015
    
    [GRAPHIC] [TIFF OMITTED] 29335.016
    
    [GRAPHIC] [TIFF OMITTED] 29335.017
    
    [GRAPHIC] [TIFF OMITTED] 29335.018
    
    [GRAPHIC] [TIFF OMITTED] 29335.019
    
    [GRAPHIC] [TIFF OMITTED] 29335.020
    
    [GRAPHIC] [TIFF OMITTED] 29335.021
    
    [GRAPHIC] [TIFF OMITTED] 29335.022
    
    [GRAPHIC] [TIFF OMITTED] 29335.023
    
    [GRAPHIC] [TIFF OMITTED] 29335.024
    
    [GRAPHIC] [TIFF OMITTED] 29335.025
    
    [GRAPHIC] [TIFF OMITTED] 29335.026
    
    [GRAPHIC] [TIFF OMITTED] 29335.027
    
    [GRAPHIC] [TIFF OMITTED] 29335.028
    
    [GRAPHIC] [TIFF OMITTED] 29335.029
    
    [GRAPHIC] [TIFF OMITTED] 29335.030
    
    [GRAPHIC] [TIFF OMITTED] 29335.031
    
    [GRAPHIC] [TIFF OMITTED] 29335.032
    
    [GRAPHIC] [TIFF OMITTED] 29335.033
    
    [GRAPHIC] [TIFF OMITTED] 29335.034
    
    [GRAPHIC] [TIFF OMITTED] 29335.035
    
    [GRAPHIC] [TIFF OMITTED] 29335.036
    
    [GRAPHIC] [TIFF OMITTED] 29335.037
    
    [GRAPHIC] [TIFF OMITTED] 29335.038
    
    [GRAPHIC] [TIFF OMITTED] 29335.039
    
    [GRAPHIC] [TIFF OMITTED] 29335.040
    
    [GRAPHIC] [TIFF OMITTED] 29335.041
    
    [GRAPHIC] [TIFF OMITTED] 29335.042
    
    [GRAPHIC] [TIFF OMITTED] 29335.043
    
    [GRAPHIC] [TIFF OMITTED] 29335.044
    
    [GRAPHIC] [TIFF OMITTED] 29335.045
    
    [GRAPHIC] [TIFF OMITTED] 29335.046
    
    [GRAPHIC] [TIFF OMITTED] 29335.047
    
    [GRAPHIC] [TIFF OMITTED] 29335.048
    
    [GRAPHIC] [TIFF OMITTED] 29335.049
    
    [GRAPHIC] [TIFF OMITTED] 29335.050
    
    [GRAPHIC] [TIFF OMITTED] 29335.051
    
    [GRAPHIC] [TIFF OMITTED] 29335.052
    
    [GRAPHIC] [TIFF OMITTED] 29335.053
    
    [GRAPHIC] [TIFF OMITTED] 29335.054
    
    [GRAPHIC] [TIFF OMITTED] 29335.055
    
    [GRAPHIC] [TIFF OMITTED] 29335.056
    
    [GRAPHIC] [TIFF OMITTED] 29335.057
    
    [GRAPHIC] [TIFF OMITTED] 29335.058
    
    [GRAPHIC] [TIFF OMITTED] 29335.059
    
    [GRAPHIC] [TIFF OMITTED] 29335.060
    
    [GRAPHIC] [TIFF OMITTED] 29335.061
    
    [GRAPHIC] [TIFF OMITTED] 29335.062
    
    [GRAPHIC] [TIFF OMITTED] 29335.063
    
    [GRAPHIC] [TIFF OMITTED] 29335.064
    
    [GRAPHIC] [TIFF OMITTED] 29335.065
    
    [GRAPHIC] [TIFF OMITTED] 29335.066
    
    [GRAPHIC] [TIFF OMITTED] 29335.067
    
    [GRAPHIC] [TIFF OMITTED] 29335.068
    
    [GRAPHIC] [TIFF OMITTED] 29335.069
    
    [GRAPHIC] [TIFF OMITTED] 29335.070
    
    [GRAPHIC] [TIFF OMITTED] 29335.071
    
    [GRAPHIC] [TIFF OMITTED] 29335.072
    
    [GRAPHIC] [TIFF OMITTED] 29335.073
    
    [GRAPHIC] [TIFF OMITTED] 29335.074
    
    [GRAPHIC] [TIFF OMITTED] 29335.075
    
    [GRAPHIC] [TIFF OMITTED] 29335.076
    
    [GRAPHIC] [TIFF OMITTED] 29335.077
    
    [GRAPHIC] [TIFF OMITTED] 29335.078
    
    [GRAPHIC] [TIFF OMITTED] 29335.079
    
    [GRAPHIC] [TIFF OMITTED] 29335.080
    
    [GRAPHIC] [TIFF OMITTED] 29335.081
    
    [GRAPHIC] [TIFF OMITTED] 29335.082
    
    [GRAPHIC] [TIFF OMITTED] 29335.083
    
    [GRAPHIC] [TIFF OMITTED] 29335.084
    
    [GRAPHIC] [TIFF OMITTED] 29335.085
    
    [GRAPHIC] [TIFF OMITTED] 29335.086
    
    [GRAPHIC] [TIFF OMITTED] 29335.087
    
    [GRAPHIC] [TIFF OMITTED] 29335.088
    
    [GRAPHIC] [TIFF OMITTED] 29335.089
    
    [GRAPHIC] [TIFF OMITTED] 29335.090
    
    [GRAPHIC] [TIFF OMITTED] 29335.091
    
    [GRAPHIC] [TIFF OMITTED] 29335.092
    
    [GRAPHIC] [TIFF OMITTED] 29335.093
    
    [GRAPHIC] [TIFF OMITTED] 29335.094
    
    [GRAPHIC] [TIFF OMITTED] 29335.095
    
    [GRAPHIC] [TIFF OMITTED] 29335.096
    
    [GRAPHIC] [TIFF OMITTED] 29335.097
    
    [GRAPHIC] [TIFF OMITTED] 29335.098
    
    [GRAPHIC] [TIFF OMITTED] 29335.099
    
    [GRAPHIC] [TIFF OMITTED] 29335.100
    
    [GRAPHIC] [TIFF OMITTED] 29335.101
    
    [GRAPHIC] [TIFF OMITTED] 29335.102
    
    [GRAPHIC] [TIFF OMITTED] 29335.103
    
    [GRAPHIC] [TIFF OMITTED] 29335.104
    
    [GRAPHIC] [TIFF OMITTED] 29335.105
    
    [GRAPHIC] [TIFF OMITTED] 29335.106
    
    [GRAPHIC] [TIFF OMITTED] 29335.107
    
    [GRAPHIC] [TIFF OMITTED] 29335.108
    
    [GRAPHIC] [TIFF OMITTED] 29335.109
    
    [GRAPHIC] [TIFF OMITTED] 29335.110
    
    [GRAPHIC] [TIFF OMITTED] 29335.111
    
    [GRAPHIC] [TIFF OMITTED] 29335.112
    
    [GRAPHIC] [TIFF OMITTED] 29335.113
    
    [GRAPHIC] [TIFF OMITTED] 29335.114
    
    [GRAPHIC] [TIFF OMITTED] 29335.115
    
    [GRAPHIC] [TIFF OMITTED] 29335.116
    
    [GRAPHIC] [TIFF OMITTED] 29335.117
    
    [GRAPHIC] [TIFF OMITTED] 29335.118
    
    [GRAPHIC] [TIFF OMITTED] 29335.119
    
    [GRAPHIC] [TIFF OMITTED] 29335.120
    
    [GRAPHIC] [TIFF OMITTED] 29335.121
    
    [GRAPHIC] [TIFF OMITTED] 29335.122
    
    [GRAPHIC] [TIFF OMITTED] 29335.123
    
    [GRAPHIC] [TIFF OMITTED] 29335.124
    
    [GRAPHIC] [TIFF OMITTED] 29335.125
    
    [GRAPHIC] [TIFF OMITTED] 29335.126
    
    [GRAPHIC] [TIFF OMITTED] 29335.127
    
    [GRAPHIC] [TIFF OMITTED] 29335.128
    
    [GRAPHIC] [TIFF OMITTED] 29335.129
    
    [GRAPHIC] [TIFF OMITTED] 29335.130
    
    [GRAPHIC] [TIFF OMITTED] 29335.131
    
    [GRAPHIC] [TIFF OMITTED] 29335.132
    
    [GRAPHIC] [TIFF OMITTED] 29335.133
    
    [GRAPHIC] [TIFF OMITTED] 29335.134
    
    [GRAPHIC] [TIFF OMITTED] 29335.135
    
    Mr. Souder. Thank you for your testimony.
    Mr. Moore.

                    STATEMENT OF GREG MOORE

    Mr. Moore. Thank you. Mr. Chairman, thank you for the 
invitation to testify today about the work of the Golden Gate 
National Parks Conservancy and our role at the Golden Gate 
National Recreation Area.
    Like Many Americans, especially those of my generation, my 
love of the national parks began with family visits as a child 
and I was honored to begin my professional career with the 
National Park Service as a park ranger in 1974. Since then I 
have devoted my entire career to the national park system, both 
working for the National Park Service and now as executive 
director of a nonprofit support group, the Golden Gate National 
Parks Conservancy.
    Since our inception in 1981, we have provided nearly $80 
million of support to national park projects and programs here 
at the Golden Gate National Recreation Area. The Parks 
Conservancy is 1 of over 100 similar nonprofit organizations 
nationally, known as Friends groups or cooperating 
associations, working to support the mission of the National 
Park Service.
    Among other things, the Parks Conservancy works alongside 
the National Park Service and here at the Presidio with the 
Presidio Trust to ensure that our Bay Area national parks are a 
philanthropic priority for our community. Our role is to open 
direct and active channels through which Americans can 
contribute time and charitable gifts to augment the critical 
work of our Federal partners. As a result, the San Francisco 
Bay Area community continues to show tremendous generosity and 
volunteerism to these parks.
    Working here at Golden Gate, along with my three decades of 
professional involvement with our national parks, I have 
observed a few key factors which I think are relevant to the 
committee's review of the national park system and the 
Centennial Act legislation.
    First, as you know, Americans love their national parks, 
believe in their intrinsic value and are willing to be generous 
to help preserve and enhance them.
    The American ethic of charity and volunteerism has made a 
remarkable impact on our national parks. In addition to the 
more than $100 million provided annually in philanthropic 
support, last year, 140,000 volunteers donated 5 million hours 
to the national parks at a value estimated at $85 million. What 
motivates this level of commitment?
    Few things inspire Americans like the immense beauty and 
nature and the historical poignancy of our national parks. Our 
national parks are an American idea, and as you have suggested 
Mr. Chairman, the ``soul of America'' where we see the inherent 
beauty, nature and heritage of our country reflected. Americans 
understand that national parks require not only the care and 
investment of the National Park Service, but their direct 
support and involvement as well.
    Throughout the park system, whether at Golden Gate, 
Yosemite, the Arizona Memorial, Yellowstone or Rocky Mountain, 
philanthropic projects have been inspired by visionary National 
Park Service leaders, implemented by effective and eloquent 
nonprofit partners, and funded by generous donors.
    As one example, here at the Golden Gate, our organization 
worked directly with the National Park Service, to bring $34 
million of support to restore Crissy Field at the Presidio. But 
this generosity of time and money can only occur when a 
substantial Federal foundation is in place to receive and 
nurture public support and care for those investments.
    Organizations like ours work closely with the National Park 
Service and here with the Presidio Trust to understand the 
agency's priorities and chart a strategic course in unison. The 
Conservancy helps our Federal partners recognize which of their 
priorities are likely to appeal to donors and we work together 
to ensure that donor-supported projects and programs are 
operationally and financially sustainable.
    The philanthropic results depend upon Park Service 
commitment, professionalism, knowledge, and active staff 
presence in our parks. These capacities, and the Federal 
funding to support them, are essential to philanthropy working 
in a dynamic and effective way.
    To make projects like Crissy Field meaningful to the 
community that supports them requires not only executing these 
park transformations, but also an ongoing commitment to 
preserve over time what has been transformed together. To sum 
up on this point, if donors give, they want to be assured that 
the National Park Service can care for the very improvements 
that their contributions made possible.
    Finally, Americans do not what their generosity to actually 
erode or replace the Federal funding commitments. Americans do 
not see their philanthropic support as a substitute for the 
role of the National Park Service or as a replacement for 
funding provided through tax dollars. Philanthropic donors do 
not have the interest, the expertise, or the capacity to 
substitute for these vital Federal responsibilities.
    Increasingly, donors are asking that their contributions be 
contingent upon assurances that future park budgets will be 
there to preserve and care for the improvements that their 
gifts have made possible. So solid operating budgets and 
Federal capital investment are key ingredients to our success 
in bringing outside support to these parks.
    The healthiest public-private partnerships are preserved 
through an appropriate balance of investment. Many park budgets 
are stretched, with infrastructure repairs occurring over many 
years and even basic services strained. But these functions 
cannot be supported solely through philanthropy. In the words 
of my colleague, Ken Olson, who leads a very successful Friends 
of Acadia National Park, ``Friends groups are here to provide a 
margin of excellence for our parks, not the margin of 
survival.''
    The Centennial Act would provide vital relief to this 
straining balance and set a specific timeframe for bringing 
parks back in balance, bringing things back in balance for our 
national parks. We commend you, Mr. Chairman, for conceiving of 
and introducing this bill. By ensuring revenue streams that 
help fund the needs of our national parks, the Centennial Act 
can build a profound public confidence that the National Park 
Service, as the steward of our Nation's heritage, will continue 
to lead the way in preserving these places for future 
generations.
    To conclude, philanthropy and volunteerism are, and will 
continue to be, essential and positive forces in achieving the 
mission of the National Park Service. These forces will grow in 
scale and impact if Americans know that their contributions 
will be effectively stewarded by the National Park Service and 
if they are treated with sincere appreciation as they donate 
time and resources.
    Thank you very much for the opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Mr. Moore follows:]
    [GRAPHIC] [TIFF OMITTED] 29335.136
    
    [GRAPHIC] [TIFF OMITTED] 29335.137
    
    [GRAPHIC] [TIFF OMITTED] 29335.138
    
    Mr. Souder. Thank you. Have I been mispronouncing your name 
Ms. Kwok?
    Ms. Kwok. No, I think you've got it right, it's Daphne 
Kwok.
    Mr. Souder. OK, thank you.

                    STATEMENT OF DAPHNE KWOK

    Ms. Kwok. Good evening, Mr. Chairman. I'm Daphne Kwok. I'm 
executive director of the Angel Island Immigration Station 
Foundation, and we are a nonprofit organization committed to 
the preservation of the Immigration Station as a place that 
honors the complex and rich cultural heritage of Pacific Coast 
immigrants and their descendants. I have recently relocated to 
San Francisco from Washington, DC to accept this unique 
opportunity to be a part of American history.
    Thank you, Chairman Souder, for the opportunity to describe 
for the record the strong partnership that the Angel Island 
Immigration Station Foundation has with the National Park 
Service and the California State Parks in telling the story of 
the ``Ellis Island of the West.'' Angel Island Immigration 
Station is the ``bookend'' to Ellis Island, telling another 
chapter of immigrant roots, part of the ``peopling of 
America.'' We want to thank you especially for your support on 
H.R. 606, the Angel Island Immigration and Restoration Act.
    Since we last testified before your subcommittee in 2004, 
much has happened and I'd like to submit for the record the 
more detailed description.
    Most Americans known the story of Ellis Island, which 
processed millions of immigrants crossing the Atlantic, but the 
story of Angel Island remains virtually unknown. And we are 
very pleased that tomorrow we'll be able to have the 
opportunity to show you the Immigration Station.
    It has been 50 years since Angel Island Immigration Station 
was actively used. Since then a lot of our treasures there 
which are depicted in these photos here to the left have been 
able to protect these historical treasures. The Angel Island 
Immigration Station Foundation has worked tirelessly to raise 
awareness and dollars to preserve this site and its history. 
Our goal, in partnership with California State Parks and the 
National Park Service, is to create a world-class visitor and 
genealogical research center to ensure that the story of the 
Pacific Coast immigration can be told for generations to come.
    Over the past few years, Angel Island Immigration Station 
Foundation and its preservation partners, CPS and NPS, have 
conducted historic preservation studies with approximately half 
a million in funds raised from private, State and Federal 
sources. The California Park Service and Angel Island 
Immigration Station Foundation have jointly completed a master 
plan for the site calling for restoration for the historic 
Immigration Station in three phrases. The first phase of the 
restoration efforts is being funded by $15 million in 
California State bonds and a half a million through the Save 
America's Treasures grant. The core project overall is expected 
to cost about $50 million.
    Like Ellis Island, Angel Island Immigration Station's 
history and legacy is important to all Americans, not just 
Californians. Nearly $18.5 million of State funds have been 
raised to date to support the preservation project. The 
addition of Federal dollars serves to endorse the national 
importance of Angel Island Immigration Station's history. And 
in particular, we hope to be able to receive the $15 million 
soon through the Congress to really help with the hospital 
building which is rapidly deteriorating. And with each passing 
of each winter, the structure faces an uncertain survival. So 
funding for the hospital building, in particular, is extremely 
timely.
    The rare and complementary partnership between the Angel 
Island Immigration Station Foundation, the National Park 
Service and California State Parks has been most beneficial in 
pooling our collective resources toward a common goal. Our 
small staff and board of directors work diligently as stewards 
of the Immigration Stationsite and history by maintaining and 
building our relationships to the broader community: schools, 
the press, advocating for legislation, fundraising in the 
corporate and private sectors.
    Through our partnership with CPS, we successfully submitted 
a proposal to the California Cultural and Historical Endowment, 
which resulted in a $3 million grant for the hospital 
preservation and construction. When a $60,000 obstacle in the 
Form A required California Environmental Quality Act study 
stood in the way before the $3 million grant could be accessed, 
CPS Director Ruth Coleman cleared the way by providing the 
needed funds for the study. We plan to submit a second proposal 
for an additional $3 million to the California Cultural and 
Historical Endowment in January.
    The Angel Island Immigration Station Foundation has been 
invited by the California Cultural and Historical Endowment in 
January. The Immigration Station Foundation has been invited by 
the California Park Service to participate next week in the 
interview process for a new Angel Island Superintendent. Being 
a part of the hiring process underscores the importance of the 
partnership.
    In a fundraising update, we are continuing to seek support 
of the restoration efforts. We will, as I mentioned earlier, 
submit another request for another $3 million from California 
State. We have also hired Signature Philanthropy to raise funds 
for this effort as well. So we are currently putting together a 
national board. We are currently also developing a marketing 
and public relations committee to help us with the branding of 
Immigration Station for our fundraising campaign and we've been 
in discussion with a number of Fortune 500 companies about 
their interest in supporting Immigration Station.
    The enduring value of Angel Island Immigration Station lies 
in the lessons that its past can teach us about our present and 
our future. Immigration is a national story.
    The restoration of Angel Island Immigration Station is a 
prime example of how everyday Americans can work together with 
private, State and Federal partners to preserve an important, 
yet little known chapter of our national story. Collaboration 
is the only way to make this a reality. We need a West Coast 
counterpart to Ellis Island to reflect a uniquely American, yet 
universal story of immigration.
    Thank you for your understanding of the importance of this 
project. Your support for this unique opportunity for creative, 
innovative, three-way partnership with Angel Island Immigration 
Station Foundation, California State Parks, and National Park 
Service is critical to our ability to restore and preserve 
Angel Island Immigration Station. In doing so, generations can 
appreciate this site, a symbol of the perseverance of the 
immigrant spirit and the diversity of this great Nation.
    Thank you very much for letting us participate in today's 
hearing.
    [The prepared statement of Ms. Kwok follows:]
    [GRAPHIC] [TIFF OMITTED] 29335.139
    
    [GRAPHIC] [TIFF OMITTED] 29335.140
    
    [GRAPHIC] [TIFF OMITTED] 29335.141
    
    [GRAPHIC] [TIFF OMITTED] 29335.142
    
    [GRAPHIC] [TIFF OMITTED] 29335.143
    
    [GRAPHIC] [TIFF OMITTED] 29335.144
    
    [GRAPHIC] [TIFF OMITTED] 29335.145
    
    [GRAPHIC] [TIFF OMITTED] 29335.146
    
    [GRAPHIC] [TIFF OMITTED] 29335.147
    
    [GRAPHIC] [TIFF OMITTED] 29335.148
    
    Mr. Souder. Thank you and everybody's full statements will 
be inserted into the record and if there are additional 
materials, if you want to get it to us, for the record.
    Let me kind of start off with the micro and I'll move to 
the macro, if I can do it that way. On Angel Island, do you 
know during its years of operation were the bulk of Asian 
immigrants, did they come through Angel Island? Was it for the 
whole region?
    Ms. Kwok. Between 1910 and 1940, 1 million immigrants came 
through Immigration Station and out of that about 175,000 were 
Chinese, about 60,000 were Japanese. There were South Asians, 
Filipinos, Koreans and in smaller numbers Russians, individuals 
from Australia, as well as Mexico as well, but still the bulk 
were Asian.
    Mr. Souder. And so if anybody wanted to come in legally, 
they had to come through that point or were there other 
stations?
    Ms. Kwok. If they were coming in through the Pacific.
    Mr. Souder. So it was a Pacific point.
    Ms. Kwok. It was a Pacific entryway.
    Mr. Souder. So in that sense, it was, in fact, like Ellis 
Island.
    Ms. Kwok. That's right.
    Mr. Souder. It was also used for detention and other types 
of operations, particularly in the Asian-American community, is 
there an awareness of Angel Island today? Is it high? Is it 
low? Is it negative? Is it positive?
    Ms. Kwok. I would answer that in several ways. Especially 
here in San Francisco, there's a lot more awareness because it 
is here. I am from the East Coast and I have to say that most 
of my colleagues and friends from the East Coast and throughout 
the rest of the country don't particularly know about the Angel 
Island story. And that's why we feel it's very, very important 
and timely right now to really make this a national story since 
it is a national story and to be really able to educate, not 
only Asian-Americans, but the broader public about the 
importance of the Immigration Station.
    But here in San Francisco it is known, especially among the 
Chinese community. It, unfortunately, is a very negative story 
because of the detention of the Chinese and so what's one of 
the sad parts of the story is that those that were detained 
there and their descendants, many of them don't even want to 
talk about their experience. And so for us, we're trying to 
have to educate them about how important it is to really learn 
about the story for those that are still living and there are 
not many left.
    Mr. Souder. How much of--still leaning toward public 
support do you think that is?
    Ms. Kwok. That the Chinese----
    Mr. Souder. Yes, in the Chinese community.
    Ms. Kwok. I think right now for the second generation, the 
younger generation, they're extremely interested now about 
their heritage, about where they came from, about their 
immigrant past and so forth. A lot of them are very much 
interested in their family trees and so now they are starting 
to ask the questions. There are a lot of other organizations, 
community organizations that are talking about the family trees 
and so forth. The younger generation, now, there's a real 
interest in learning more about Angel Island, the history 
there, and especially those that came through there.
    Mr. Souder. Was material saved, like at Ellis Island, just 
to have the potential to do the family tree?
    Ms. Kwok. I think as we get the word out within the Asian-
American community, very much so. The Asian-American Studies 
Programs throughout the country have really galvanized and 
educated and increased the awareness of this next generation of 
Asian-Americans. They're extremely interested about Asian-
American history.
    Mr. Souder. But there's not a repository of documents that 
are remaining, like at Ellis Island?
    Ms. Kwok. At the site?
    Mr. Souder. Or in a general archives somewhere. It might 
not be at the site any more.
    Ms. Kwok. There are some materials at the site, but some of 
the items are also being housed in Sacramento, but all the 
paperwork, the archives of the paperwork, immigration papers 
are actually at the National Archives in San Bruno.
    Mr. Souder. Are there other--and pardon my ignorance on 
this--are there other sites that would even approach the 
significance of this in the Asian-American community?
    Ms. Kwok. The only real other significant historical sites 
would be the internment camps. But as a major point of entry on 
immigration, there's no other major point.
    Mr. Souder. In looking at gaps, I had a Peopling of America 
bill that's kind of stopped right now, but as we look at not 
only the immigration question, but as we look at broadening the 
base of the National Park Service as well as State parks and 
look at Hispanic-Americans, that's clearly going to be another 
category, but in Asian-Americans, part of the reason I back 
this is it's an increasing part of population and this, to me, 
appears to be about the only thing out there that's of real 
potential national significance.
    Ms. Kwok. That's right. It really is the only site that 
there is. And so that's why for us we really feel the urgency 
of propelling this history forward to really educating the 
community nationwide about it and really to raise the funds as 
soon as possible to preserve what's left there as well.
    Mr. Souder. Mr. Jackson, when you look at a park like Angel 
Island which--it seems to me we're going to have a little of 
the kind of debate that occurred at Alcatraz, particularly as 
increasing national interest comes because as I understand it, 
in reading about Alcatraz, a lot of it was is it going to be 
interpreted as a prison or is it going to be interpreted as a 
natural resource, beautiful vistas, should be more like a park 
where people can come out and picnic. There are other uses of 
that island as well before and after the prison, so to speak, 
particularly before. But its national memory and significance 
and its uniqueness was the prison.
    Here, what you have inside this island, to some degree has 
never really been publicized and to some degree people have 
been kind of ashamed of the history of what happened, not only 
with the Chinese, but the Japanese in World War II and others. 
Yet, it is compelling when you look at the national 
significance of this island and what's likely to be an 
exponentially increasing Asian-American population in the 
United States. How do you see management of that mission? Do 
you think this site will be dominated and lead the primary 
interpretation in dollars being with the immigration station in 
that or how do you see it in park management this is going to 
evolve?
    Mr. Jackson. We continue to work closely with the 
foundation and obviously their interest is in interpreting that 
period, but the island is 750 acres. It offers magnificent 
vistas. It has a trail system associated with it. There is 
another side of the island where there are barracks. There are 
a myriad of stories that have to be interpreted and told and we 
would like to do all of those in concert with our partners of 
the Foundation--we also have an active concession there that 
leads tours. We have a volunteer program. This is a popular 
place for school groups to come to and we try and tell all of 
the stories there.
    We're challenged on this by our resources and by time. And 
to the extent that we put significant dollars in, I mean, one 
of the things about Angel Island, that shouldn't be lost of you 
tomorrow, is I talked about it having the greatest collection 
of post civil-war buildings, on the coast here in the Western 
United States. And so we have significant deferred maintenance 
issues at Angel Island. So there are some things that we won't 
be telling stories about because we can't either get into the 
buildings or we can't prepare them in a safe manner for people 
to see them.
    Mr. Souder. Are the bulk of these buildings related to the 
immigration or to a fort that was there?
    Mr. Jackson. They're all across the board. We're getting a 
significant effort of improving those buildings associated with 
the immigration story, the hospital, the barracks. I have a 
feeling that--and we're looking at this in phases and I have a 
feeling, I'm hopeful, optimistic, that we'll be able to get a 
good portion of those buildings funded to a point where we can 
tell a pretty compelling story, a complete story. There seems 
to be enough interest in that.
    Mr. Souder. It's kind of fascinating, because from the 
first time I read about this and focused on it a little bit in 
the National Parks Committee in hearings, it just seems to me 
that the contrast with the overwhelming awareness of Ellis 
Island, that it's not understood or appreciated and it's hard 
for me to sort out why that is true.
    Mr. Jackson. Well, I think that gets into----
    Mr. Souder. Because Ellis Island wasn't always pretty 
either. In other words, the stories there that you hear the 
romantic and the Statue of Liberty, but it wasn't always a 
pretty picture either in any immigration--we probably won't be 
doing one of these in the Southwest border. I think that's 
really safe to say.
    Mr. Jackson. I think it's a function of the East part of 
the United States is just older and richer in history and was 
more fully developed and those stories were richer and 
resonated and as people migrated and moved out to the West, I 
think the attention has begun to shift out here and this is one 
of those stories that just didn't get a lot of widespread 
attention, but that's because of the difficult subject matter. 
We just really get into a lot of issues there. Probably in the 
last 20, 30, 40 years it has been kind of sexy for this country 
to begin to explore what happened to people of minority 
persuasion. So I can't explain why that is.
    I do think that the story will become--I do think the story 
has gotten a lot of traction. It's got a tremendous amount of 
publicity. As you have indicated, I think it will only continue 
to grow in terms of the interest and the fascination and 
people's desire to get out there and want to see it.
    Mr. Souder. Is the State park system also looking at sites 
of significance to Hispanic, particularly Mexican-Americans? 
I'm not sure what that would be. Historic to that just meant 
missions, which is the kind of historic attempt of Spain and 
Mexico. What other reach-out things--one of the most 
fascinating things for me to watch when we talk about how do we 
expand the vision of the Park Service and how our parks are 
going to respond to new urban populations. When I went to San 
Antonio Missions, I think their official visitation is--I 
forget what it is, but it's not big to see the missions. 
They're beautiful missions. They're kept up. Yet, when you go 
there, you realize that I think their official report is like 
$1.1 million of which maybe 200,000 people go into missions and 
900,000 are picnicking because it's some of the only green 
space in San Antonio.
    And so one of their challenges is the people who are using 
park don't want to use the park the way the people running the 
park want to use the park, that they're trying to decide 
whether to put more parking lots in because people just pull up 
on the grass and start to picnic. Now some of them are going to 
drift over and see the missions and ask about the history, but 
some of our challenge is that at the State and local park 
level, there's just a shortage of green space and places to 
picnic and other types of things.
    And I'm wondering, how do you and the State park system 
view this with city parks and Federal parks? Because now we're 
going to meet this urban demand, particularly in the minority 
populations who, generally speaking, aren't going to go to 
wilderness parks.
    Mr. Jackson. A couple of responses. In terms of Hispanic 
parks, we're trying to do some outreach to that segment of the 
population. We do have Pio Pico State Historic Park which is 
down in Los Angeles area, actually in East L.A. Pio Pico was 
the first Governor of Mexico California. He was actually a 
Mexican of black descent. Pico Boulevard in Los Angeles, if 
you're familiar with L.A., was named after Pio Pico.
    There's a Pico House at a place called El Pueblo which is 
the original founding for Los Angeles. And we used to, 
California State Parks used to own El Pueblo, also known as 
Alvaro Street. We actually in the 1990's when we were going 
through difficult budget times, we sold that or gave that to 
the city of Los Angeles to operate, but we do have Pio Pico. We 
are actually in partnership again with the National Park 
Service as a condition of one of our MOUs with them to explore 
opportunities for interpreting and telling the story of Cesar 
Chavez, the great labor leader of the Farm Workers Movement 
back in the 1970's and 1980's and both the national parks and 
State parks are looking at a way of memorializing his life as a 
way of reaching out and telling a story to Hispanics and 
Latinos.
    We just recently as a part of the--and I'm probably missing 
out on some other aspects of our system. We're going through 
the whole kind of embracement of our Old Towns, like down in 
Old Town San Diego which are areas that were first established 
by Mexicans and so in doing that, we're trying to be much more 
faithful in terms of interpreting the historic period that 
those towns were found around and try to be a little more 
faithful to telling an accurate story of those cultures down 
there.
    We just passed the two largest bonds in the history of the 
State, principally for acquisition and a segment of that is 
taken off of the top to go to local cities and counties, 
purchase parkland in the State and so each time a bond act is 
passed, a significant portion of that goes to trying to address 
local park and recreation needs. Along the lines of trying to 
make State parks more relevant, we spent somewhere close to $80 
million of our bond acts, Prop. 12, the 2000 bond to purchase 
40 acres in the heart of downtown Los Angeles, principally a 
low-income area, a place where the availability of open space 
is like less than an acre per 1,000 or whatever that number is.
    And if you go over to the west side of town it's closer to 
8 acres per 1,000. And so in trying to address that and in 
trying to get the parks closer to the people, we purchased 40 
acres there. We purchased 40 acres in a place called Baldwin 
Hills, which is down in urban Los Angeles. We're developing our 
first urban parks in both of those areas in order to try and 
reach out to those communities.
    The park where we developed in the area called the 
``Cornfield,'' which is right in the heart of downtown, you can 
see the downtown skyline from the park, that park will be a 
State historic park and will tell the stories of all of the 
peoples that crossed that site and really was kind of an entry 
point. It's right down the street from El Pueblo. It's kind of 
an entry point for a lot of Angelinos and a lot of people that 
came to Los Angeles looking for a better life. And so we'll be 
telling a number of stories there.
    Mr. Souder. For our record and following up with Jim, and 
if you can followup and get some material on the bond, how you 
sold the bond issue, what some of the arguments you made, what 
were some of the opposition said about the bond? I think that 
would be very instructive to have in our record as we look at 
how we should move forward in the Park Service and then also, 
if you have any written materials on the urban park question 
that you just outlined, particularly in Los Angeles. That was 
very interesting.
    Mr. Moore, in your--first, let me, in the conservancy 
question, to try to separate, other than the Presidio, would 
your organization be the primary fundraising group to support 
the Golden Gate Recreation Area?
    Mr. Moore. Yes, we are.
    Mr. Souder. Are there other funds that do that like 
Yosemite Fund or do you function----
    Mr. Moore. There are other nonprofit partners providing 
programs that will raise money for capital improvements in 
their operating budgets, but we are the sole supporting 
organization directly to the National Park Service.
    Mr. Souder. So would you be, in some ways, more like the 
Friends that operate the stores or are you an umbrella 
organization?
    Mr. Moore. We're both. We serve the role of a Friends 
Organization like the Yosemite Funding Yosemite, which is 
philanthropic in nature and we serve the role of a cooperating 
association providing visitor services in terms of interpretive 
materials and park bookstores to support the park mission.
    Mr. Souder. So there was something on Sutro Baths and when 
there was work on that and do you work, do you raise money for 
a particular project like that to supplement?
    Mr. Moore. Yes, we do. We raise money for park projects, 
particularly those that have a bold public vision and a 
compelling public impact and we also support volunteers in the 
park and many different volunteer programs such as the native 
plant nurseries or a site stewardship program.
    Mr. Souder. Now I wanted to explore in some of your 
principles, a couple of points. Do you believe if--and I'm 
setting up for discussion with Mr. Sykes. One of our challenges 
is that as we look at the budget and say OK, everybody's health 
costs and pension costs are way off. There's no 3 percent 
growth anywhere. If you find it, please let me know because 
we'd like to implement it. That the Homeland Security costs 
ideally, particularly at Golden Gate would be much higher than 
other parks and I believe they should be more isolated, 
particularly when they are national icons that demand huge 
dollar questions.
    The drug question is very difficult. I'm on the primary 
committee on narcotics. It is a big debate how much of that you 
want to have inside the Park Service, how much you want to have 
drug agents running around in the Park Service and which way do 
we want to do that and how do we do that funding because, 
clearly, we're driving them with meth labs.
    All you have to do is track the meth labs in the United 
States, find a national forest and it's going to spill into the 
parks. It's clear the borders, we have huge problems at Oregon 
Pipe and anywhere along any border.
    But some of those may come and go, Homeland Security and 
the narcotics. The pension question and the health question are 
not going to come and go. They're going get greater, not less. 
How many rangers we put in what types of things, how much we 
put in visitor centers, if we froze the Park Service, which 
we're not going to do, in other words, I think Mr. O'Neill said 
it correctly; it's basically a political system and politicians 
will continue to add things.
    My friend, Jim Ridenour, is going to testify at the Indiana 
hearing. He was one of the leading opponents of park barreling 
which, of course, started in the first four and is not likely 
to end. Furthermore, he created heritage areas, partly to get 
around what he called the lowering of the standards of the 
National Park Service, but what's happened is east of the 
Mississippi, we don't have all this huge public land, so what 
we decided is we like heritage areas.
    So now we're backed up like 80 heritage areas that have 
passed Congress and another 100 that are introduced that 
haven't gone through and I don't see this trend changing. In 
other words, we're either going to have heritage areas that are 
going to be recreation areas because what you have is a pent-up 
demand east of the Mississippi to add to the National Park 
Service.
    So the land responsibility and purchases, I mean one of 
what we get into in this kind of debate is at Paoli 
Battlefield, it came forward that a group of Sisters had 
decided to sell their land of the convent and the decision was 
we either had to buy the Paoli Battlefield which they were 
going to sell at a fraction of the cost of developing it, or it 
was going to be developed. It becomes a zero sum game.
    Unless the Nature Conservancy steps in, we're pretty well 
out of options. We maybe get easements sometimes to try to do 
it. The bottom line is that land is gone. Every time we do that 
and protect something, it basically doesn't get added to the 
Park Service, it's transfer funds. Something that was on the 
cycle or backlogged gets taken off.
    My opinion is even if we pass this intended act intact 
which I'm hopeful of, but not holding my breath completely that 
we'll have that much annual money, that with the additions and 
the rising costs, we're going to get squeezed. You've raised 
some challenging questions and I wanted to address some of 
those.
    If your donors were told that--I thought the Rockefeller 
quote that you had in your written statement, but you didn't 
say his name. The bright line between--things like employee 
housing units and roads and maintained infrastructure should be 
the function of the Federal Government and the goal of the 
support groups, like the National Park Foundation, was to do 
the connection between visitor and place, that kind of covers 
the extremes, but a lot of this is in the murky middle.
    If your donors felt that the Federal Government wasn't 
going to provide the support, do you think they would have? 
They would rather have the Federal Government provide the 
support, but do you think that they would as an option to 
giving money, let it fall down?
    Mr. Moore. No. I think there is an issue in any marketplace 
of just the charitable capacity, the competing demands that 
people that are generous face about where to give funds. Our 
experience with national parks is that because donors see their 
value so clearly and many of them, particularly in our area, 
enjoy them so frequently, that they gravitate toward a 
responsibility of helping.
    A responsibility of helping is different than a 
responsibility of totally taking care. And we have not tried to 
direct them to a different position because we believe, even if 
we tried to get them to a responsibility of totally taking care 
of that amount of charitable giving would be so big for the 
whole system that it would in some ways collapse in on itself.
    There are institutions that are totally charitable, 
charity-driven, but they are completely nonprofit managed with 
their own board taking care of it, not Government entities.
    We've looked at schools. Public schools have fundraisings, 
support groups. Public hospitals have fundraising support 
groups. Those models show that people are willing to 
contribute, but appropriately, when there is some form of 
public foundation that is in place that they are adding value 
to as opposed to replacing a fundamental public foundation.
    Mr. Souder. Of course, the problem we face with the 
taxpayers is roughly the same thing.
    Mr. Moore. Yes, it is.
    Mr. Souder. In other words, they're willing to buy Paoli 
Battlefield, but they don't want to pay to keep it up. In 
trying to do a vision of how to capture the imagination, like 
Mission 66, this is a very tough tradeoff. How can you be 
visionary and how can you do maintenance? Everybody wants to 
pay for the new, but not the old. Everybody wants a new car, 
but not have to do the maintenance on their car.
    Clearly, the Federal Government has to bear the bulk of it 
in that thanks to NCPA, each year we've done additional, tried 
to get the funding boosted up some. We get some, quite frankly, 
national parks are one of the only discretionary agencies 
that's consistently been flat or increased funded as opposed to 
cut, that I just--I'm trying to sort through because on the 
Education Committee we're facing the same thing.
    Like you say, the public schools are getting squeezed, 
extra curricular arts programs, music programs, and I'm 
wondering where this line is and it's a similar thing we just 
did in Katrina. Where is the line in Katrina? What's the 
Federal Government versus the private sector and let me ask 
this question. With the Centennial Act, I believe at a minimum, 
what I'm hoping at a maximum, what we'd like to have is what 
doesn't come from charitable is covered by the Federal 
Government.
    I'm not sure at the end of the day as quite frankly people 
understand what precisely that means in Congress and our 
escalating variable, that's financially doable. It depends on 
the economy and how we're coming.
    But at the very least, I'd like to see a match and that at 
a minimum standard, a match and then plus the budget, that it 
would be a match that's additional, over and above a fixed 
amount to go up and whatever else we can get beyond that as 
part of a visionary kind of shot toward 2016.
    Do you believe that the donors that--you said a key word, 
you said they see it here in San Francisco and they're willing 
to give to San Francisco. Will they feel that same giving if 
they see the National Park Service and will they give it if 
they thought the Federal Government was going to match for the 
Park Service as a whole and what kind of vision would they have 
to see to be willing to do that?
    Mr. Moore. I think a match could be a strong set up, 
particularly if the vision showed that match produced something 
that was durable, that it wasn't a fixed 3 years, but actually 
had some lasting power and impact.
    Many of our donors give to the National Park Foundation. 
Many give to the National Park Foundation and then discover us 
and give to us. Many give to us first and then give to the 
entire system, so I believe that there are people who have come 
to love national parks in different ways, but if properly 
cultivated and engaged in their future, are clearly willing to 
donate, provided they see durability to their gift.
    As one example, returning to your earlier question, Mr. 
Chairman, there is one place where donors did step up to 
maintenance needs and that's at Acadia National Park. One of 
the Friends Group there presented a program called Trails 
Forever. Now the formula there was that if the Park Service 
could provide the resources to rehab and restore the trail 
system, the capital side, private philanthropy would develop an 
endowment to care for it in perpetuity, so that there are 
limited examples where if properly leveraged and the donors 
properly cultivated, you can see different formulas that work.
    Mr. Souder. Do you think that if we tinkered with something 
like the Centennial Act, now we're talking visionary than 
specific legislation because this committee doesn't do 
legislation, but looking at how would we do this? If there was 
something that gave incentive, because the orientation of this 
is how do we get a national parks vision and people giving 
charitable, giving to that and then the Federal Government 
putting in money, that had a component that was more 
regionalized, that if you did at national, you got 100 percent 
match, but if you did regionally, you got a 25, you get a tax 
deduction now. But you actually saw additional public funds go 
in, but at a lesser rate than if you gave at national.
    Do you think that would increase the total pool or would 
you be cherry picking off of the same donors?
    Mr. Moore. I think it has the possibility of increasing the 
total pool. Our experience has been that the philanthropic 
asset of our national park system is that people clearly see 
that it is here for future generations and they can see that 
their impact today is a gift to the future.
    Cultivating that story with people who have experienced 
national parks on their own, whether in a local park like this 
or many people here, of course, go to Yosemite or Grand Canyon 
or other places, there's a real love and affection for the 
national park system.
    The Friends organizations and the Park Foundations are 
really at the early stages of tapping into that and incentives 
as you suggest I think could be quite powerful in helping the 
growth.
    Mr. Souder. Mr. Sykes, I appreciate as always at these 
hearings the kind of the detail by park to show what exactly 
has happened, rather than just in theory when we're looking at 
37 percent reductions and 50 percent reductions and really 
dramatic shifts. Some of that would occur naturally.
    We're all getting squeezed in the budget, but this is not 
just a little, it's a major squeeze in that it's happening and 
most people don't realize it's happening because it's been over 
a number of years and then the cumulative impact of these type 
of decisions has certainly had a big reduction in the number of 
rangers you see. That's probably the most visible part of the 
changes, but for everyone you don't see in front of you, that 
means there's probably something behind that's changing as 
well.
    In looking at the Acadia example is a tremendous example of 
having an endowment and clearly Acadia, like to some degree San 
Francisco has the luxury and Ken Olson and his people have been 
extraordinary about tapping wealthy people who live on that 
island or visit that island to put that money in. But the 
endowment thing is really intriguing because normally you don't 
see people willing to give to an endowment.
    How do you feel in working this region and having worked 
with Nature Conservancy, if we tinkered with this some, because 
I can say to Republicans being able to sell an endowment idea 
related to certain projects has some sizzle to it. We toyed 
around with this, with the National Endowment for the Arts of 
rather than having the debates about whether Federal Government 
should regulate the arts and how much could you set aside 
certain types of programs where you, in effect, fund an 
endowment that's matched.
    In this case, the Park Service isn't going to turn over 
control of the parks, but for certain additional projects, you 
might tinker with match increased percentage donations. I'm 
trying to brainstorm and I just wonder what your reaction to 
some of this kind of thing is.
    Mr. Sykes. I think as part of the National Parks 
Conservation Association, I would say we would welcome all 
ideas that have the benefit of creating an increased funding 
foundation for the parks, whether that comes through private 
philanthropy, through a match approach which I think is quite a 
good approach, actually. I think it will bring new donors to 
the table who are not there today or don't have the ability to 
see themselves as philanthropists for a government agency. So I 
think things of that nature are things we would look at and be 
quite supportive conceptually and it's hard given the magnitude 
of the challenge not to be very open minded and creative and 
somewhat aggressive about trying to generate good ideas that 
have a positive benefit.
    It's easy to say we want to be a purist about this and we 
want it to be ideal and then work toward the ideal and end up 
with something in the mean time that isn't very good. I think 
from our standpoint we probably would say we have to fight to 
fight every single year for funding through authorization and 
legislation, but we also have to do everything else we possibly 
can because there are other sources of funding that need to be 
potentially approached and brought to the table and if we can 
determine other ways of trying to attract that, that would be 
good.
    Mr. Souder. The Nature Conservancy to some degree, other 
State and local trusts play a huge role in protecting land 
before the Park Service can often get that, yet it's not very 
highlighted in many ways.
    Do you see, as somebody who is actually working both 
organizations to some degree here, do you see a way to 
capitalize that as we go toward the 90th year and the 100th to 
look at how we work with this whole land acquisitions and 
easement question because what I'm sending underneath this is 
to get over the hump in the funding. Clearly, we have these 
huge shortages that we've been documenting in personnel.
    Clearly, there are research reductions, law enforcement 
pressures and the individual park rangers still rate highest in 
public esteem of any profession, at least in popularity. But 
I'm not sure that has enough, when we actually get down to the 
dollar tradeoffs and Members of Congress, enough sizzle to put 
us over the top like land acquisition does, like new visitor 
centers do, like hotels and restaurants at a park, but possibly 
combined with some of the support groups that are providing 
some of those functions of whether it be easements near parks, 
the process of how we do inholdings and land acquisitions.
    I'm trying to figure out where we could put some of that 
around it because basically our huge challenge is our 
infrastructure is falling apart. But that's, as a politician, 
me going out there and trying to sell my district that the 
infrastructure is falling apart in California when I don't have 
many--I have zero Federal lands in my District--is not the 
easiest sell. Maybe for Yosemite, but Vallen Islands is not on 
their top 10 list. That's the realistic political problem.
    Mr. Sykes. Yes. There are sort of two issues here. One is 
that there's always the ability in some local areas to generate 
a lot of local political support and financial support. Golden 
Gate National Recreation Area and the Conservancy's work are 
examples of that. There are countless units of the national 
park system that don't have the opportunity to generate the 
significant sort of funding and support locally because they're 
in desolate regions or they're in places that don't have urban 
centers nearby. And yet they have tremendous resource benefits 
and attributes that make them treasures in the same way that 
this Golden Gate area is.
    So the idea is how do you match the need for a system-wide 
concept and approach here which is valid and generally accepted 
by people?
    Wearing my Nature Conservancy hat as opposed to my NPCA 
hat, I'd say that having some approach to planning that is 
generally accepted is a very good foundation for that. The 
Nature Conservancy has gone through a very rigorous process of 
identifying which places they believe need to be preserved 
because of the values they represent from a biodiversity 
perspective and they have a very ambitious goal about how much 
they want to protect different habitat types of land and earth 
populations around the world, not just in the United States.
    That approach, I think, has been very important in allowing 
them to manage the complexity of dealing with local areas and 
different State interests, because they've got chapters in 
every State in the country and they're trying to carry on 
global activities outside of the country at the same time.
    So perhaps when you look at the national park system and 
some of the congressional challenges, being able to do some of 
this overall planning, relying on a science foundation, what 
are we trying to do? You asked several good questions earlier 
with the first panel about the values of the national park 
system and in terms of preservation of unique places, what are 
the overall objectives.
    It strikes me that you can build more of a national 
consensus if you're able to say we have a national set of 
values that the national park system is there to protect and 
enhance and that seems clear. There's a scientific foundation 
for it and then use that to create more opportunities for local 
support in places that can sustain all the support. I think 
you're going to have to have both concepts addressed at the 
same time.
    Mr. Souder. The greatest explosion of wealth in the United 
States has been in the entertainment industry and in some 
degree service, but certainly Internet-related type, both of 
which have had the Internet boom and bust here in California, 
but clearly the entertainment wealth is huge. They seem to 
adopt all kinds of causes. Do you think as somebody who 
represents this region, there's a chance or how would we tap 
into it?
    I could think of several potential romantic hooks. One 
would be a wildlife subgroup where they adopt the preservation 
of at-risk species, endangered and at-risk. Another sub could 
be how we bring the cultural and natural resources through the 
education system in the United States, tapping into the 
National Park Service and you could have several channels of 
fundraising.
    California has the celebrities that would let you do that, 
and many of the assets which would let you do that and to 
capture that, because normally we think in kind of traditional 
kind of lanes of the Park Service, yet those are two that 
potentially have a lot of marketing sizzle to them.
    Do you think that those kind of things would play? Have you 
ever tried to tap into that industry to promote the supplement 
and expansion, assuming that this was tied with Government 
match type questions?
    Mr. Sykes. A couple of things there. First of all, 
entertainment and media and communications and technology 
perhaps those are all sort of in the same converged area. 
There's been tremendous wealth created and it's relatively 
youthful wealth creation.
    I know that the Moore Foundation, Gordon and Betty Moore 
Foundation which is based here in the Bay Area is a foundation 
that is made up of that kind of wealth. It comes out of the 
great success that Intel has had over the past 40 years. But 
that Foundation has an ambition to do things for the 
environment globally and that Foundation is making great 
strides in providing some support for things such as what we're 
seeing in Golden Gate and in some of the national parks.
    We're seeing them do work in Alaska with the Nature 
Conservancy, for example, but that is just the tip of the 
iceberg and I think a number of the sources and very 
significant wealth that will ultimately move toward some sort 
of philanthropic activity, have not yet been addressed and I 
think they generally overlook the national park system because 
they make a simplistic assumption that the national park system 
has to be OK, after all, it's already in stewardship provided 
by the Government. It's the best of the best, we ought to be 
worrying about everything else.
    And I think the thing that we reveal here is national park 
system, maybe it is the best of the best, many people would say 
that, but it actually needs more support than anybody imagines 
it needs, so I think there is a great opportunity to connect 
the mission to this new source of wealth that frankly hasn't 
attached itself to the cause as much as it should.
    Mr. Souder. Because to me, part of the challenge is 
something from a business background and marketing background 
is that we have two things simultaneously occurring. What you 
documented in your testimony a gradually rising resources to 
meet exponentially rising costs which then result in reduction 
in services and more things being added and structures falling 
down because you can't keep up with the demands of that which 
is basic operating type things. Then the second thing is is 
even in the glory days of the best funding years of the Park 
Service, you still were basically not tapping in and part of my 
discussions even years ago were never taking advantage of the 
educational opportunities.
    In other words, the thought was you come to the park, you 
visit the park, you maintain the park in front of you, not take 
the park to the people. And that one of the marketing 
opportunities here is to come up with a vision that's beyond, I 
know Dick Ring was trying to address some of this kind of stuff 
in the Park Service, but how you can take this down to the 
schools. I mean the kids coming up there are health conscious. 
They want to hike. They want to bike. They want to do this, 
they want to learn more about nature. How do we get that out 
because that has never been tapped, even when the money was 
flush in the Park Service.
    A second thing is that there has always been research going 
and the research is sometimes uncoordinated, sometimes it's 
coordinated, but there is no better incubation lab in the 
United States for tracking frogs and toads. There's some 
romance around grizzly bears and wolves, but it's everything. 
If you wanted to study bees or flies or mosquitos, you're going 
to find in our Park Service which is a whole pitch toward 
science and how you interrelate.
    As I go to schools all over, they're getting ponds there 
and interrelating and trying to do more hands on science and 
relate it to the math class and here we have the biggest labs 
in the whole United States with the most unique type things in 
our Park Service. To me, those are kind of visionary things 
that are different that might appeal to a group that hasn't 
been connected. If they think it's yeah, which is Mr. Moore's 
point, if they think it's yeah, we're going to basically 
replace--we're going to pay for the interpretive ranger or make 
sure the pothole gets out of the road or put a new visitor 
center in, that's what they think the Federal Government does. 
But if we gave them new horizons and a new vision to supplement 
the National Park Service and ideally the State and local parks 
would pick up a similar type thing.
    But we're looking at the National Park Service from the 
Federal level. How do we put some imagination into this? 
Otherwise, because our attendance is quite frankly flat and 
aging. It's a challenge.
    Mr. Sykes. I think there's a great opportunity in that. 
We're seeing it in the Nature Conservancy, we see it in the 
National Parks Conservation Association when we do partnerships 
with people who want to do specific park partnerships which we 
do selectively. We found a tremendous amount of potential 
philanthropic donor enthusiasm for doing things in partnership 
with the parks, but I would reinforce everything Mr. Moore.
    Private donors expect the Government to be a ready partner 
which means they really expect the Government to take part of 
the responsibility and be consistent and be there over the long 
term because I think most people in private philanthropy 
presume that they can create opportunities for new initiatives, 
but the initiatives then have to be responsively managed by the 
Government which is the long-term steward.
    Mr. Souder. Thank you all for your patience. Anything else 
any of you want to add on any of the various subjects? Well, 
thank you very much for participating in the hearing today and 
if you think of other things you want to give us and we'll be 
doing followup questions with each of you.
    I thank everyone for attending. The subcommittee stands 
adjourned.
    [Whereupon, at 6:33 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
